i
PETITION APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Sixth Circuit
Case No. 17-2267
Opinion
Issued June 30, 2020 ........................................ 1a–69a
United States Court of Appeals
for the Sixth Circuit
Case No. 17-2267
Judgment
Issued June 30, 2020 .............................................. 70a
United States District Court
Western District of Michigan
Case No. 1:14-cv-1012
Opinion and Order
Issued September 26, 2017 ............................. 71a–76a
United States District Court
Western District of Michigan
Case No. 1:14-cv-1012
Judgment
Issued September 26, 2017 ..................................... 77a
United States District Court
Western District of Michigan
Case No. 1:14-cv-1012
Report and Recommendation
Issued November 7, 2016 ............................... 78a–92a

ii
Michigan Supreme Court
Case No. 146652
Order
Issued July 3, 2013 ......................................... 93a–94a
Michigan Court of Appeals
Case No. 306868
Opinion
Issued December 13, 2012 ............................ 95a–100a
United States Court of Appeals
for the Sixth Circuit
Case No. 17-2267,
Order Denying Petition for Rehearing En Banc
Issued September 15, 2020 ......................... 101a–137a

1a
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0197p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ERVINE LEE DAVENPORT,
Petitioner-Appellant,
No. 17-2267

v.
DUNCAN MACLAREN, Warden,
Respondent-Appellee.

Appeal from the United States District Court for the
Western District of Michigan at Grand Rapids.
No. 1:14-cv-01012—Ellen S. Carmody, Magistrate
Judge.
Argued: May 7, 2019
Decided and Filed: June 30, 2020
Before: COLE, Chief Judge; STRANCH and
READLER, Circuit Judges.
COUNSEL
ARGUED: Tasha J. Bahal, WILMER CUTLER
PICKERING HALE AND DORR LLP, Boston,

2a
Massachusetts, for Appellant. Jared D. Schultz, OFFICE OF THE MICHIGAN ATTORNEY GENERAL,
Lansing, Michigan, for Appellee. ON BRIEF: Tasha J.
Bahal, Reuven Dashevsky, WILMER CUTLER PICKERING HALE AND DORR LLP, Boston, Massachusetts, for Appellant. Aaron D. Lindstrom, OFFICE OF
THE MICHIGAN ATTORNEY GENERAL, Lansing,
Michigan, for Appellee.
STRANCH, J., delivered the opinion of the court
in which COLE, C.J., joined. READLER, J. (pp. 26–
46), delivered a separate dissenting opinion.
_________________
OPINION
_________________
JANE B. STRANCH, Circuit Judge. Ervine Lee
Davenport was convicted of first-degree murder after
a jury trial in Michigan state court. He challenges his
conviction in a habeas corpus petition under 28 U.S.C.
§ 2254 because he was visibly shackled at the waist,
wrist, and ankles during trial. The State of Michigan
admits Davenport’s shackling was unconstitutional
but argues that the habeas petition should be denied
because this error was harmless. The district court
agreed it was harmless error and denied the petition.
Because “shackling is ‘inherently prejudicial,’” Deck v.
Missouri, 544 U.S. 622, 635 (2005) (quoting Holbrook
v. Flynn, 475 U.S. 560, 568 (1986)), and the evidence
of premeditation and deliberation necessary to a firstdegree murder conviction was not overwhelming, the
State has not met its burden to show the restraints
did not have a “substantial and injurious effect or influence in determining the jury’s verdict.” Brecht v.

3a
Abrahamson, 507 U.S. 619, 637 (1993). We therefore
REVERSE the judgment of the district court,
GRANT Davenport a conditional writ of habeas corpus, and REMAND the case for further proceedings.
I. BACKGROUND
A. The Trial
Davenport killed Annette White in the early hours
of January 13, 2007. At his 2008 trial, he testified that
he had been drinking beer and smoking crack cocaine
with White and some friends when White was asked
to leave her friends’ house due to her aggressive behavior. According to Davenport’s testimony, he tried
to calm her down as he drove her home. While he
drove, she was saying that she was hot and taking off
her clothes. She demanded that he take her to a specific apartment building and tried to grab the steering
wheel. Each time she tried to grab the wheel, Davenport pushed her back. She then started yelling and
kicking and pulled out a boxcutter, which she swung
at Davenport, cutting his arm. Davenport testified
that he was afraid of the knife and trying to avoid oncoming traffic. As he continued to drive, Davenport
pinned her against the side of the car with his fully
extended hand pressed against her neck. Right as he
was about to let up, she scratched him on the face, and
he “pinned her back up against the other side of the
car.” At some point, he noticed that she was no longer
struggling; initially, he thought that she had calmed
down or passed out but then he realized she was not
breathing. He panicked and left her partially clothed
body in a field. He testified that he was not sure how
long he held White back by the throat but that it
“seemed like . . . everything happened fast.”

4a
Some of this testimony was corroborated by other
evidence at trial. Medical evidence established that
White had consumed a substantial amount of alcohol
and crack cocaine shortly before her death. An independent witness also testified that he had consumed
beer and crack cocaine with Davenport and White
that night. This witness further testified that he
asked White to leave at about 2:30 a.m. that morning
because she was acting “agitated” and “getting crazy.”
She was “ranting and raving,” though he would not
describe her as “violent.” Other witnesses testified
that White would get angry when she smoked crack
cocaine, and that she was “a spitfire” who had a reputation for fighting.
But medical evidence seemingly contradicted
other aspects of Davenport’s testimony. A forensic
pathologist, Dr. Brian Hunter, testified that although
it would take 30 seconds to cut someone’s air off sufficiently to cause them to pass out, it would take at least
four to five minutes to suffocate someone to death. Dr.
Hunter also testified in rebuttal that the injuries to
White were not consistent with Davenport’s testimony
that he did not choke White and instead “his hand was
flexed and that all he was doing was pushing her
against the door.” Dr. Hunter explained that the injuries to either side of White’s neck, but not the middle,
were “more consistent with choking than . . . broad
pressure there.”
The prosecution also presented testimony that
Davenport had strangled another woman until she
was unconscious less than a week before White’s
death. Another witness testified that Davenport had
told him a couple of times that “if things got out of

5a
hand,” he would choke people. Davenport told this
same witness that White “kept coming back at him
and it just got out of hand, and that’s when he offed
her.”
In its closing, the defense argued that this was a
case of self-defense. In contrast, after giving 17 reasons why Davenport’s “‘self-defense’ claim was bogus,” 1 the prosecution claimed that “[t]he only real issue is whether it’s first-degree” or second-degree murder. The only support for premeditation and deliberation the prosecution gave in its closing statement was
the length of time it would take to choke someone to
death. The prosecutor claimed, “[c]learly he had the
opportunity to hesitate, stop, think about what he was
doing, and not kill her. I submit to you there’s more
than enough evidence of premeditation and deliberation for first-degree murder, but at the very least obviously this is second-degree murder.” After deliberating for six hours over the course of two days, the jury
found Davenport guilty of first-degree murder.
During the trial, Davenport had one hand cuffed,
as well as shackles around his waist and ankles. The
trial judge allowed “his right hand to be uncuffed so
he could write notes to his counsel.” The judge also
noted that there was a privacy curtain around the defense table. Defense counsel referred to the “[c]ourt’s
policy regarding the shackles,” but there was no onthe-record justification given for the shackling.

1

These reasons included, among others, that Davenport
dumped White’s body in the woods instead of calling 911, initially
lied to the police, weighed almost three times as much as the victim, and stole some of White’s property after killing her.

6a
B. The State Court Appeals and Evidentiary
Hearing
On direct appeal, Davenport raised several issues,
including that “he was denied his due process rights
when the trial court required him to wear shackles
during the trial.” People v. Davenport, Docket No.
287767, 2010 WL 3062279, at *1 (Mich. Ct. App. Aug.
5, 2010). The Michigan Court of Appeals found that
this issue was unpreserved. Id. Reviewing it for plain
error, the court found that “it was error for the trial
court to order defendant to be restrained without
making the requisite findings,” but that Davenport
had “not shown that his restraints were visible to the
jury” and thus had “not demonstrated prejudice.” Id.
at *1–2. The Michigan Supreme Court reversed, finding that this issue was preserved 2 and remanding the
case to the trial court for an evidentiary hearing. People v. Davenport, 794 N.W.2d 616 (Mich. 2011). The
Michigan Supreme Court directed the trial court to
determine whether “the jury saw the defendant’s
shackles” and, if so, “whether the prosecution can
demonstrate beyond a reasonable doubt that the
shackling error did not contribute to the verdict
against the defendant.” Id. (citing Deck, 544 U.S. at
635).
The trial court subsequently held an evidentiary
hearing where all 12 jurors testified. This evidentiary
hearing was held on June 24 and July 29, 2011,
2

During jury selection, defense counsel asked that Davenport’s handcuff be removed because, “given the circumstances,
the testimony, the evidence I believe is going to be presented, I
don’t want the jurors to be unduly influenced and fearful of Mr.
Davenport.”

7a
approximately three years after the trial. Five jurors
testified that they saw Davenport’s waist chain, handcuffs, or ankle shackles at some point during jury selection or the trial. Two other jurors testified that they
recalled comments by other jurors about Davenport’s
shackles. One juror could not remember whether she
saw the shackles. The remaining four jurors testified
that they did not notice or hear about Davenport’s restraints during the trial.
Several jurors recalled at the evidentiary hearing
that they had thought Davenport might be dangerous
when they saw him in shackles. Another juror recalled
that she was sitting closest to Davenport when he testified and a fellow juror had asked her if that made
her nervous. She also recalled that there were more
guards when Davenport testified because he was not
in shackles. But the jurors who testified that they saw
Davenport’s shackles also all said that they believed
shackling was routine practice given that he was on
trial for murder or because he was in pre-trial incarceration. 3 Every juror asked also testified that Davenport’s shackling did not affect their deliberations.
After this hearing, the trial court issued an opinion ruling that, although some of the jurors saw Davenport’s shackles, the prosecution had proved beyond
a reasonable doubt that the shackling did not affect
the jury’s verdict. The trial court focused on the jurors’
testimony that Davenport’s shackling was not discussed during deliberations and did not affect their
3

Davenport wore an orange jail jumpsuit on the first day of
trial, during jury selection. He wore dress clothes for the rest of
the trial. He does not raise any issues relating to his attire on
appeal.

8a
verdict. It also relied on the jurors’ testimony that
they viewed the shackling as a routine security procedure. The Michigan Court of Appeals affirmed, holding that “[t]he trial court did not err in finding that
the prosecution proved beyond a reasonable doubt
that the shackling error did not affect the verdict.”
People v. Davenport, Docket No. 306868, 2012 WL
6217134, at *3 (Mich. Ct. App. Dec. 13, 2012). The
Michigan Supreme Court denied leave to appeal. People v. Davenport, 832 N.W.2d 389, 390 (Mich. 2013). It
stated that, although “the Court of Appeals erroneously failed to consider defendant’s claim in light of
the United States Supreme Court decision in
Holbrook v. Flynn . . . , the error was harmless under
the facts of this case. Given the substantial evidence
of guilt presented at trial, we cannot conclude that
there was an unacceptable risk of impermissible factors coming into play.” Id.
C. The § 2254 Petition
Davenport next filed a timely petition for a writ of
habeas corpus under 28 U.S.C. § 2254, raising a single
issue—his shackling. After the State of Michigan responded to this § 2254 petition, the magistrate judge
issued a Report and Recommendation (R&R) that the
petition be denied. The magistrate judge found that
“it was completely reasonable for the jury to reject Petitioner’s claim of self-defense and to instead find that
Petitioner committed first degree murder.” Thus, the
magistrate judge concluded that the state courts’ determination “that the prosecution had demonstrated
beyond a reasonable doubt that [Davenport’s shackling] did not contribute to the jury’s guilty verdict”
was “neither contrary to, nor involve[d] an

9a
unreasonable application of, clearly established federal law.” The district court overruled Davenport’s objections and adopted the R&R in its entirety, denying
the petition and a certificate of appealability.
Davenport, now proceeding pro se, applied to this
court for a certificate of appealability. We granted him
a certificate of appealability and appointed counsel.
This appeal followed.
II. ANALYSIS
A. Standard of Review
We “review the decision of a district court to grant
or deny a writ of habeas corpus de novo” and “review
factual findings by that court for clear error, except
where the district court has made factual determinations based on its review of . . . court records; in such
cases we review such findings de novo.” Ruimveld v.
Birkett, 404 F.3d 1006, 1010 (6th Cir. 2005).
There is a dispute, however, about what standard
applies on habeas review when determining whether
Davenport’s unconstitutional shackling was harmless
error. The State argues that our review must entail
two separate determinations. First, we must find that
the state court’s conclusion that the shackling was
harmless beyond a reasonable doubt “was contrary to,
or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court.” 28 U.S.C. § 2254(d). And, second, we must find
that the shackling had a “substantial and injurious effect or influence in determining the jury’s verdict.”
The former is the familiar test required by the Antiterrorism and Effective Death Penalty Act of 1996

10a
(AEDPA). See, e.g., Mitchell v. Esparza, 540 U.S. 12,
18 (2003) (“[H]abeas relief is appropriate only if the
[state court] applied harmless-error review in an ‘objectively unreasonable’ manner.” (quoting Lockyer v.
Andrade, 538 U.S. 63, 75–77 (2003))). The latter is the
prejudice standard that habeas petitioners complaining of trial error are required to meet. See Brecht, 507
U.S. at 623, 637. Davenport, on the other hand, argues
that the only question before this court is whether the
shackling “had substantial and injurious effect or influence in determining the jury’s verdict,” id. at 637,
because the Brecht standard “‘subsumes’” AEDPA’s
unreasonableness inquiry. Davis v. Ayala, 135 S. Ct.
2187, 2198–99 (2015) (citing Fry v. Pliler, 551 U.S.
112, 119–20 (2007)).
Binding precedent resolves the issue. “The answer
in this Circuit is that Brecht is always the test, and
there is no reason to ask both whether the state court
‘unreasonably’ applied Chapman 4 under the AEDPA
and, further, whether the constitutional error had a
‘substantial and injurious’ effect on the jury’s verdict.”
Ruelas v. Wolfenbarger, 580 F.3d 403, 412 (6th Cir.
2009). We adopted this conclusion from the Supreme
Court’s statement that it “makes no sense to require
formal application of both tests (AEDPA/Chapman
and Brecht) when the latter obviously subsumes the
former.” Id. (quoting Fry, 551 U.S. at 120); see Reiner
v. Woods, 955 F.3d 549, 556 (6th Cir. 2020) (“The Supreme Court and this court have made clear that
‘Brecht is always the test’ for evaluating harmless
4

Chapman v. California, 386 U.S. 18 (1967) (holding that,
on direct appeal, the prosecution has the burden of proving beyond a reasonable doubt that a federal constitutional error was
harmless).

11a
error on collateral review, even where AEDPA applies.”).
The dissent suggests that Ruelas and its progeny
are called into question by the Supreme Court’s decision in Davis v. Ayala, 135 S. Ct. 2187. Ayala, however, noted that while a habeas petitioner’s obligation
to meet the Brecht standard “does not mean . . . that a
state court’s harmlessness determination has no significance under Brecht,” it further explained that
though AEDPA remains a precondition to habeas relief, both the Brecht and AEDPA/Chapman tests need
not be applied. Id. at 2198; see also Fry, 551 U.S. at
119–20. The Supreme Court concluded that applying
Brecht alone is appropriate because “the Brecht test
subsumes the limitations imposed by AEDPA.” Id. at
2199 (citing Fry, 551 U.S. at 119–20). Ruelas relied on
that precedential conclusion, explaining that though
Brecht “handles the work” of both tests, a federal “habeas court remains free to, before turning to Brecht,
inquire whether the state court’s Chapman analysis
was reasonable. If it was reasonable, the case is over.
But . . . a habeas court may [also] go straight to Brecht
with full confidence that the AEDPA’s stringent
standards will also be satisfied.” Ruelas, 580 F.3d at
412–13.
In fact, we have already concluded that Ruelas
and Ayala are consistent: “Ruelas, which has not been
affected by Ayala, . . . clearly announc[es] that in the
Sixth Circuit on habeas review we always apply
Brecht and need not also apply AEDPA/Chapman.”
O’Neal v. Balcarcel, 933 F.3d 618, 625 (6th Cir. 2019).
In Reiner, we explained that while “[t]he state argues
that the Supreme Court’s subsequent decision in

12a
Davis v. Ayala changed this dynamic . . . [t]he problem
for the state is that our precedent forecloses this approach.” 955 F.3d at 556–57; see also McCarley v.
Kelly, 801 F.3d 652, 665 (6th Cir. 2015) (citing to both
Ruelas and Ayala for the applicable standard); Sheard
v. Klee, 692 F. App’x 780, 786 (6th Cir. 2017) (“Although Brecht is a pre-AEDPA case, the Supreme
Court has subsequently held that the Brecht test ‘subsumes’ the AEDPA requirements such that a formal
application of both tests is unnecessary.” (quoting Fry,
551 U.S. at 120)). We have again recently said, not
that two tests must be performed, but that the proper
test contains “a choice of prompts;” in which one “option—a shortcut of sorts—is to leapfrog AEDPA and
jump directly to Brecht.” Hollman v. Sprader, 803 F.
App’x 841, 843 (6th Cir. 2020) (citing Ayala, 135 S. Ct.
at 2198–99).
The dissent supposes that our quotation from
Reiner unfairly masks its holding. Dissent at 34. But
Reiner expressly holds that the “Supreme Court and
this court have made clear that ‘Brecht is always the
test.’” 955 F.3d at 556. Reiner is merely a recent installment in an ongoing chain of binding precedent
that has sought to provide clarity to the relationship
between AEDPA and Brecht—an issue that has preoccupied appellate courts and caused “consternation”
among the lower courts since AEDPA was passed.
Ruelas, 580 F.3d at 412–13; see also 2 R. Hertz & J.
Liebman, Federal Habeas Corpus Practice and Procedure § 31.1 (7th ed. 2019). There is no nefarious ellipsis plot to paint over the Reiner court’s recognition of
the State’s argument. Simply put, where the Supreme
Court has stepped in to provide clarity—as it did in
Fry and again in Ayala—we are obliged to follow it.

13a
And here that clarifying law includes Ayala’s holding
that where a habeas petitioner can succeed under the
more demanding Brecht test, the state court’s “harmlessness determination itself is unreasonable,” which
shows that both tests are satisfied. 135 S. Ct. at 2199.
Faced with unambiguous precedent from both the
Supreme Court and our circuit, the dissent next turns
to challenges to timing, and word-splitting. First it
contends that Brecht could not have functionally subsumed the AEDPA test because AEDPA was “still in
the mind’s eye” when Brecht was decided. Dissent at
35. But, as noted above, the Supreme Court set out its
holding that the Brecht test subsumed AEDPA after
AEDPA was enacted. We are bound by its interpretation of AEDPA’s requirements. The dissent then challenges the meaning of the words used by the Supreme
Court, contending that the Court held the Brecht test
“subsumes” the AEDPA analysis but not that the
Brecht test “consumes” the AEDPA analysis. Dissent
at 35. This is word play. Black’s Law Dictionary defines “subsume” as a verb that means “[t]o judge as a
particular instance governed by a general principle; to
bring (a case) under a broad rule.” Subsume, Black’s
Law Dictionary (11th ed. 2019). “Consume” is a verb
for which Black’s offers five definitions, none of which
apply to the question we face today. 5 These definitions
5

“(1) To destroy the substance of, esp. by fire; to use up or
wear out gradually, as by burning or eating <the house was consumed by fire>. (2) To expend wastefully; to waste; to squander
<he consumed all his resources within four months>. (3) To use
up (time, resources, etc.), whether fruitfully or fruitlessly <45%
of the paper we consume is recycled>. (4) To eat or drink; to devour <no alcohol may be consumed on these premises>. (5) To
engage the attention or interest of fully; to obsess <she was

14a
evidence the dissent’s underlying conceptual error. It
uses the word “consumes” to assert that AEDPA’s requirements have been improperly eliminated. But the
Supreme Court selects its words and it chose “subsumes”—a word routinely used in law to describe the
interplay between legal standards—to show that the
Brecht test satisfies AEDPA’s requirements, not eliminates them. We are bound to accept that choice and
apply that word here. A habeas petitioner therefore
“must satisfy Brecht, and if the state court adjudicated his claim on the merits, the Brecht test subsumes the limitations imposed by AEDPA.” Ayala,
135 S. Ct. at 2199. “[A] federal habeas court need not
‘formal[ly]’ apply both Brecht and “AEDPA/Chapman.” Id. at 2198 (quoting Fry, 551 U.S. at 119–20)
(second alteration in original).
The dissent’s assertion that our Brecht-only
framework jettisons the required AEDPA test is based
on a misunderstanding—it conflates the habeas test
that applies to an underlying constitutional error with
the test that governs the harmlessness of that error.
It relies chiefly on Yarborough v. Alvarado, 541 U.S.
652 (2004) and Mendoza v. Berghuis, 544 F.3d 650,
655 (6th Cir. 2008) for its failure-to-satisfy AEDPA
claim but those cases concerned whether there was an
underlying constitutional error at the petitioners’ trials. That question, of course, requires asking whether
the state court’s constitutional analysis “was contrary
to, or involved an unreasonable application of, clearly
established Federal law,” § 2254(d), before turning to
Brecht. Here, however, that question need not be
consumed with guilt after her father’s death>.” Consume, Black’s
Law Dictionary (11th ed. 2019).

15a
asked because the State concedes that Davenport’s
shackling was constitutional error.
In fact, this concession neatly reveals the crux of
the dissent’s confusion. It supposes that this opinion
seeks to lay blame on the State for conceding “away
AEDPA review of the Michigan courts’ harmless error
determination.” Dissent at 36. Had the State made
that issue-concluding concession, there would be no
need to dispute the review standard. What the State
conceded, unlike the cases on which the dissent relies,
is the underlying constitutional error. It bears repeating—when there is a dispute over whether a constitutional error occurred, of course we would apply §
2254(d)’s “contrary to or . . . unreasonable application”
of federal law test. But the State here concedes constitutional error. That is what makes this case unusual
and is the reason that we can go straight to Brecht.
The dissent’s confusion about what was conceded undergirds its misunderstanding of this majority opinion.
Providing a list of cases, the dissent asserts that
we stand alone in applying a Brecht-only test and that
all other federal circuits addressing the issue “have
granted AEDPA deference to a state court’s determination that a constitutional error was harmless,” thus
applying both Brecht and AEDPA. Dissent at 36–37.
This statement illustrates the dissent’s confusion. Not
a single case on the dissent’s list contains a habeas
petitioner who prevailed under Brecht’s harmlessness
inquiry and was then required to pass through the
gauntlet of a second harmlessness test. Orlando v.
Nassau Cty. Dist. Attorney’s Office, 915 F.3d 113, 127
(2d Cir. 2019) (no state court harmlessness

16a
determination; Brecht-only applied); Johnson v. Lamas, 850 F.3d 119, 137 (3d Cir. 2017) (petitioner failed
to meet AEDPA test, therefore “necessarily cannot
satisfy” Brecht (quoting Ayala, 135 S. Ct. 2199)); Long
v. Pfister, 874 F.3d 544, 547 (7th Cir. 2017) (en banc)
(faulting the original panel for failing to “apply the
standard of Brecht” to its finding of constitutional error but reviewing only the constitutional holding below); Davis v. Grandienard, 828 F.3d 658, 666 (8th
Cir. 2016) (petitioner failed to meet AEDPA test, no
Brecht analysis); Rademaker v. Paramo, 835 F.3d
1018, 1024 (9th Cir. 2016) (petitioner failed to meet
AEDPA test, therefore “necessarily cannot satisfy”
Brecht (quoting Ayala, 135 S. Ct. 2199)); Malone v.
Carpenter, 911 F.3d 1022, 1030 (10th Cir. 2018) (petitioner failed to meet AEDPA test, alternatively failed
to meet Brecht); Al-Amin v. Warden, 932 F.3d 1291,
1299 (11th Cir. 2019) (petitioner failed Brecht-only
test).
The dissent’s analytical error is perhaps best captured by its parallel citation to Sifuentes v. Brazelton,
for the proposition that the Ninth Circuit rejects our
court’s Brecht-only framework. 825 F.3d 506, 534 (9th
Cir. 2016). Sifuentes notes that AEDPA applies to the
harmlessness assessment even after Ayala, and then
explains how the Ninth Circuit’s harmless error analysis works—the same way as ours:
In sum, a petitioner “necessarily cannot satisfy” the Brecht requirement of showing that
he was “actually prejudiced” by the state
court’s error . . . “if a fairminded jurist could
agree with the [state appellate court] that this
procedure met the Chapman standard of

17a
harmlessness.” [Ayala, 135 S. Ct.] at 2199. By
the same token, if a petitioner does satisfy the
Brecht requirement of showing that an error
resulted in “actual prejudice,” then the petitioner necessarily must have shown that the
state court’s determination that the error was
harmless was objectively unreasonable.
Id. at 535.
There is no dispute that both Brecht and AEDPA
must be satisfied for a habeas petitioner to show that
a constitutional error was not harmless. The Supreme
Court’s statement in Fry that the Brecht test subsumes the limitations imposed by AEDPA and our acknowledgment in Ruelas that the Brecht test handles
the work of both tests show that our test accomplishes
that principle. The critical point missed in the dissent’s analysis is that in the harmless error context, it
is significantly harder for a habeas petitioner to meet
Brecht’s actual prejudice standard than Chapman’s
defendant-friendly standard or, in other words, easier
for the State to prevail under Brecht than under
AEDPA/Chapman. So much so that where a state
court finds an error harmless under Chapman and the
defendant is later able to surmount the imposing
Brecht hurdle, the state court’s Chapman analysis
(even though insulated by AEDPA deference) is necessarily objectively unreasonable under Harrington v.
Richter, 562 U.S. 86, 103 (2011). See Ayala, 135 S. Ct.
at 2198–99. The tests of Brecht and AEDPA/Chapman
then both seek traces of the same poison but Brecht’s
test covers both because it requires the petitioner to

18a
show enough poison to be fatal under either test. 6 This
is why the Court in Ayala held that “[i]n sum, a prisoner who seeks federal habeas corpus relief must satisfy Brecht, and if the state court adjudicated his claim
on the merits, the Brecht test subsumes the limitations imposed by AEDPA.” Ayala, 135 S. Ct. at 2199.
This standard of review, moreover, was a point of
agreement among the Justices in Ayala. 7 As a result,
6 This makes sense because Brecht intended to place a higher

burden on a habeas petitioner at collateral review than on direct
appeal. 507 U.S. at 637. As the dissent correctly notes, the habeas petitioner in Fry argued for the AEDPA/Chapman test (instead of Brecht’s) because it would have lowered his burden. Dissent at 31–32. The dissent is correct that AEDPA did not make
relief more available to petitioners, but it overlooks the Fry
Court’s rationale that Brecht is the test because AEDPA did not
intend to lower the burden on petitioners and Brecht is harder
on petitioners than AEDPA/Chapman. Fry, 551 U.S. at 119–20.
The point stands that the AEDPA/Chapman test is easier. “[I]t
is implausible that, without saying so, AEDPA replaced the
Brecht standard . . . with the more liberal AEDPA/Chapman
standard.” Id.
7

In her dissent in Ayala, Justice Sotomayor explained:
My disagreement with the Court does not stem from its
discussion of the applicable standard of review, which
simply restates the holding of Fry. Fry rejected the argument that [AEDPA] compels federal courts to apply
any standard other than that set forth in Brecht, when
assessing the harmlessness of a constitutional error on
habeas review. . . . In addition to confirming the Brecht
standard’s continued vitality, Fry established its exclusivity. Fry expressly held that federal habeas courts
need not first assess whether a state court unreasonably applied Chapman before deciding whether that error was prejudicial under Brecht. Such a requirement
would “make no sense when the latter standard obviously subsumes the former.” Nothing in the Court’s
opinion today calls into question this aspect of Fry’s
holding. If a trial error is prejudicial under Brecht’s

19a
even though Brecht predated AEDPA, a habeas court
may choose to start with Brecht because AEDPA deference may be exacted through Brecht’s demanding
standard. Id. at 2199. Brecht, moreover, not only contains AEDPA’s stringent commands of deference to
state court merit determinations but also its spirit of
federalism, comity, and finality. 8 Fry, 551 U.S. at 116.
We therefore turn to the question of whether Davenport’s shackling had a “substantial and injurious

standard, a state court’s determination that the error
was harmless beyond a reasonable doubt is necessarily
unreasonable.
Ayala, 135 S. Ct. at 2211 (Sotomayor, J., dissenting) (quoting
Fry, 551 U.S. at 120) (brackets and citations omitted). See also
Jimerson v. Payne, 957 F.3d 916, 929–30 (8th Cir. 2020) (adopting Justice Sotomayor’s rule statement for the harmlessness inquiry). This shows that the presence of the Eighth Circuit on the
dissent’s list of circuits that require application of two tests is
another mistaken entry.
8

In fact, counter to the dissent’s assertion that Brecht only
does the work of AEDPA/Chapman where there was no Chapman analysis by the state court, dissent at 34–35, Fry held that
precisely because Brecht performs the work of “finality, comity,
and federalism. . . . Brecht’s applicability does not turn on
whether the state appellate court recognized the constitutional
error and reached the Chapman question.” Fry, 551 U.S. at 117–
18 (“[These] weighty reasons given in Brecht for applying a less
onerous standard [on the State] on collateral review . . . hav[e]
nothing to do with whether the state court actually applied
Chapman.”). Therefore, “[i]n this Circuit, Brecht is the standard
for reviewing all (non-structural) errors on collateral review; it
applies whether or not the state appellate courts recognized the
error.” Ruelas, 580 F.3d at 411. Ayala, moreover, makes clear
that Fry’s holding that Brecht subsumes AEDPA deference, applies even where there is a harmless error determination by the
state court. 135 S. Ct. at 2199.

20a
effect or influence” on the jury’s verdict. See Brecht,
507 U.S. at 637.
B. The Law of Shackling
“The law has long forbidden routine use of visible
shackles during the guilt phase” of a criminal trial.
Deck, 544 U.S. at 626. After discussing the roots of
this precept in the common law, Deck summarized the
near-universal consensus of lower courts and commentators that “a criminal defendant has a right to
remain free of physical restraints that are visible to
the jury; that the right has a constitutional dimension; but that the right may be overcome in a particular instance by essential state interests such as physical security, escape prevention, or courtroom decorum.” Id. at 628. The Supreme Court concluded, “the
Fifth and Fourteenth Amendments prohibit the use of
physical restraints visible to the jury absent a trial
court determination, in the exercise of its discretion,
that they are justified by a state interest specific to a
particular trial.” Id. at 629.
This right is rooted in “three fundamental legal
principles.” Id. at 630. First is the presumption of innocence, which “lies at the foundation of the administration of our criminal law.” Id. (quoting Coffin v.
United States, 156 U.S. 432, 453 (1895)). “Visible
shackling undermines the presumption of innocence
and the related fairness of the factfinding process. It
suggests to the jury that the justice system itself sees
a ‘need to separate a defendant from the community
at large.’” Id. (quoting Holbrook, 475 U.S. at 569) (citation omitted). Second is the right to counsel: “Shackles can interfere with the accused’s ‘ability to communicate with his lawyer’” and his “ability to

21a
participate in his own defense.” Id. at 631 (quoting Illinois v. Allen, 397 U.S. 337, 344 (1970) (citations
omitted). Finally, there is the need to preserve the integrity of the judicial process. Id. “[T]he use of shackles at trial ‘affront[s]’ the ‘dignity and decorum of judicial proceedings that the judge is seeking to uphold.’” Id. (second alteration in original) (quoting Allen, 397 U.S. at 344).
For these reasons, “shackling is ‘inherently prejudicial.’” Id. at 635 (quoting Holbrook, 475 U.S. at 568).
“Thus, where a court, without adequate justification,
orders the defendant to wear shackles that will be
seen by the jury,” the defendant’s due process rights
are violated. Id. Here, the State of Michigan does not
dispute that there was no on-the-record justification
for the shackling and therefore it was unconstitutional. The State argues instead that this error was
harmless under the standards applicable on habeas
review.
Certainly, Davenport is not entitled to habeas relief simply because he was unconstitutionally shackled. As noted above, we must also find that the shackling error “had substantial and injurious effect or influence in determining the jury’s verdict.” Brecht, 507
U.S. at 637. Habeas petitioners “are not entitled to habeas relief based on trial error unless . . . it resulted
in ‘actual prejudice.’” Id. But “[t]he inquiry cannot be
merely whether there was enough to support the result, apart from the phase affected by the error. It is
rather, even so, whether the error itself had substantial influence [on the jury’s decision]. If so, or if one is
left in grave doubt, the conviction cannot stand.”
McCarley, 801 F.3d at 665 (quoting O’Neal, 513 U.S.

22a
at 438) (emphasis in original). The State “has the burden of proof in this analysis.” Stumpf v. Robinson, 722
F.3d 739, 752 (6th Cir. 2013) (en banc); see also Rosencrantz v. Lafler, 568 F.3d 577, 590 (6th Cir. 2009)
(Under Brecht, “[t]he state bears responsibility for
showing that the error had no effect on the verdict.”).
“Where things are ‘evenly balanced,’ O’Neal instructs
that the state bears the ‘risk of equipoise.’” Reiner, 955
F.3d at 556 (first quoting O’Neal, 513 U.S. at 435) (citation omitted).
The high bar of actual prejudice highlights the error in the dissent’s claim that our Circuit’s Brecht-only
framework “pays no respect” to our sister state courts
and “sets us apart from every other circuit court to
have addressed” harmless error issues in habeas. Dissent at 39. The dissent’s inclusion of the Ninth Circuit
on its list again illustrates its misunderstanding. The
Ninth Circuit recently held that “[t]he Brecht standard is so stringent that it ‘subsumes’ the
AEDPA/Chapman standard for review of a state court
determination of the harmlessness of a constitutional
violation. We need not apply both a Brecht review and
an AEDPA/Chapman review because ‘a determination
that the error resulted in ‘actual prejudice’ under
Brecht necessarily means that the state court’s harmless error determination was not merely incorrect, but
objectively unreasonable.’” Hall v. Haws, 861 F.3d
977, 992 (9th Cir. 2017) (quoting Deck v. Jenkins, 814
F.3d 954, 985 (9th Cir. 2016) (brackets and citations
omitted)).
Hall shows again that the dissent’s list of circuit
cases applying AEDPA/Chapman merely supports the
undisputed conclusion that courts may choose to

23a
perform harmless error analysis under AEDPA/Chapman first, before turning to Brecht’s more onerous inquiry, if necessary. The list does not support the requirement of “two separate conclusions” that “the
courts of appeals have universally accepted,” dissent
at 39, nor does it stand for the separate proposition
that AEDPA requires courts to apply a second analytical framework after applying Brecht. See Jenkins,
814 F.3d at 985 (discussing Ayala and concluding “[a]
separate AEDPA/Chapman determination is not required”). The dissent, for another instance, also includes the Third Circuit on its list—and yet that court
too applies a Brecht-only framework. See, e.g., Wharton v. Vaughn, 722 F. App’x 268, 277 (3d Cir. 2018),
cert. denied, 139 S. Ct. 594 (2018) (“[A]lthough the
District Court reviewed [the state court’s harmlessness assessment] under § 2254(d), our review here
will focus on whether he has met the Brecht standard.”). In sum, this opinion does not flout AEDPA or
misapprehend Supreme Court precedent, dissent at
39, and it does respect the judgment of our sister circuits, which routinely apply a test comparable to our
own.
Applying Brecht, we turn to cases that analyze
harmlessness by assessing the weight of a shackling
error in light of the evidence presented. For example,
in Robinson v. Gundy, we held that the unconstitutional shackling was harmless error because “[t]he evidence against Robinson was truly overwhelming.”
174 F. App’x 886, 893 (6th Cir. 2006). Similarly, in
Lakin v. Stine, our circuit determined that the shackling error was harmless because “the evidence of guilt
is overwhelming.” 431 F.3d 959, 966 (6th Cir. 2005).
These cases were preceded by Ruimveld v. Birkett,

24a
which held that the petitioner proved his entitlement
to habeas relief by “showing the harm to the presumption of innocence that the Supreme Court has found to
be inherent in indicia of guilt such as shackles, by
showing that there was no good reason for the shackling, by showing that his was a close case based on
purely circumstantial evidence,” and by noting that
the State had failed to show any factors (other than
his imprisonment) that would make the shackles less
prejudicial. 404 F.3d at 1017–18.
Taken together, these cases stand for the proposition that the shackling of a defendant without justification is highly prejudicial if viewed by the jury because it vitiates the presumption of innocence and undermines the fairness of the factfinding process. Indeed, the Supreme Court in Deck instructed that
“shackling is ‘inherently prejudicial.’” Deck, 544 U.S.
at 635 (quoting Holbrook, 475 U.S. at 568). The dissent mistakenly views the Supreme Court’s conclusion as limited to direct review. Dissent at 43. Of
course, in Davenport’s habeas case, unlike Deck’s direct appeal, actual prejudice is a prerequisite to relief.
Deck, 544 U.S. at 635. That is precisely our position in
the disagreement with the dissent over the standard
of review. But the “inherently prejudicial” nature of
visible shackling, as determined by the Supreme
Court, does not rise and fall with the standard of review. Instead, as the Supreme Court itself explained,
“[t]hat statement is rooted in our belief that the practice will often have negative effects, but—like ‘the consequences of compelling a defendant to wear prison
clothing’ or of forcing him to stand trial while medicated—those effects ‘cannot be shown from a trial

25a
transcript.’” Id. (quoting Riggins v. Nevada, 504 U.S.
127, 137 (1992)).
The governing caselaw reveals Brecht’s “actual
prejudice” standard in action. AEDPA/Chapman and
Brecht provide two mechanisms for assessing harmless error. Brecht’s is “broader.” Ruelas, 580 F.3d at
412. While error found under Brecht necessarily
means error under AEDPA/Chapman, the opposite
cannot be said. As the Eleventh Circuit (another court
included by the dissent on its list) correctly explained,
“if a petitioner satisfies the Brecht standard, he necessarily also satisfies the AEDPA standard, though
the reverse is not true.” Hammonds v. Comm’r, Alabama Dep’t of Corr., 712 F. App’x 841, 850 (11th Cir.
2017), cert. denied sub nom. Hammonds v. Dunn, 139
S. Ct. 106 (2018) (citation omitted). 9 By this same token, if a petitioner cannot prevail under
AEDPA/Chapman, he cannot prevail under Brecht.
Id. This is why courts, including this one—and many
on the dissent’s list—often test the waters under
AEDPA/Chapman before turning to Brecht’s more demanding inquiry. See Stewart v. Trierweiler, 867 F.3d
633, 636–38 (6th Cir. 2017). 10
9 Hammonds also noted: “[t]he majority of the federal courts
of appeals directly apply the Brecht test rather than first determining whether a petitioner meets the AEDPA standard.” Hammonds v. Comm’r, Alabama Dep’t of Corr., 712 F. App’x 841, 850
(11th Cir. 2017), cert. denied sub nom. Hammonds v. Dunn, 139
S. Ct. 106 (2018).
10 The dissent cites Stewart as an emblem of proper harmless

error analysis at the habeas stage. But there the petitioner failed
to get past AEDPA/Chapman and we affirmed on that issue;
there was no reason to reach Brecht. Id. at 638. The Brecht-only
approach taken here fully accords with Stewart.

26a
The dissent’s misunderstanding of this point is yet
again illustrated by the case it holds up as “particularly instructive.” Dissent at 37. In Malone v. Carpenter, the Tenth Circuit interpreted Ayala’s instruction
that “although a federal court reviewing a state [court
merits decision under Chapman] need not ‘formally
apply both Brecht and AEDPA,’ AEDPA still ‘sets
forth a precondition to the grant of habeas relief.’” 911
F.3d at 1030 (quoting Ayala, 135 S. Ct. at 2198). The
Malone Court continued: “as we understand the
Court, satisfaction of the AEDPA/Chapman standard
is a necessary condition for relief (that is, failure to
satisfy the standard requires denial of relief), but satisfaction of the standard is not a sufficient condition
for relief because Brecht must also be satisfied.” Id.
(emphasis in original)).
Malone did not say, nor could it, that satisfaction
of the Brecht standard (which incorporates
AEDPA/Chapman) is not a sufficient condition for relief. It is. The Supreme Court has said so. Ayala, 135
S. Ct. at 2198–99. Though courts may choose to apply
both, see Malone, 911 F.3d at 1037; Ayala, 135 S. Ct.
at 2208, it is not necessary. Id. at 2198–99. And since
Malone, the Tenth Circuit has evidenced its agreement with that principle by applying a Brecht-only
framework. In Harmon v. Sharp, for example, it held:
“[o]n habeas review, we may only hold that a constitutional error was not harmless if, after applying de
novo review, we determine that the error ‘had substantial and injurious effect or influence in determining the jury’s verdict,’” 936 F.3d 1044, 1081 (10th Cir.
2019) (quoting Brecht, 507 U.S. at 637; citing Ayala,
135 S. Ct. at 2198). And contrary to the position taken
by the dissent, Harmon did not otherwise apply an

27a
AEDPA/Chapman test to the harmlessness analysis
performed by the state court. Id.; see also Harmon v.
State, 248 P.3d 918, 933 (Okla. Crim. App. 2011) (applying Chapman). In Coddington v. Sharp, the Tenth
Circuit ratified its conclusion that Brecht necessarily
includes an assessment of whether the state court’s
“harmlessness determination was itself unreasonable.” 959 F.3d 947, 953, 957 (10th Cir. 2020) (quoting
Ayala, 135 S. Ct. at 2199).
The dissent does not—and cannot—cite a single
court of appeals case where a habeas petitioner would
have prevailed under Brecht but then lost under
AEDPA/Chapman. The circuit court cases it cites
merely reveal how the application of Brecht satisfies
AEDPA/Chapman. Some of the cases cited by the dissent begin with AEDPA/Chapman, and only get to
Brecht if necessary; others on its list—as specifically
authorized by the Supreme Court—go straight to
Brecht. No case on the dissent’s list completes Brecht’s
harmless error inquiry only to repeat the analysis under a different test.
Applying the Brecht standard set out by the Supreme Court and employed in our circuit, we examine
the strength of the evidence against Davenport.
C. Substantial and Injurious Effect or Influence
1. Evidence of Guilt
The State argues that the evidence Davenport
committed some degree of murder was overwhelming.
Davenport conceded that he killed White but argued
that he did so in self-defense. Yet unrebutted expert

28a
testimony explaining that strangulation requires several minutes to kill is inconsistent with his self-defense claim. On the other hand, the evidence showing
the premeditation and deliberation required for firstdegree murder is considerably weaker. To resolve the
core dispute in this case, it is necessary to delve briefly
into the Michigan caselaw that governs.
Michigan law draws a sharp distinction between
first-degree and second-degree murder. “First-degree
and second-degree murder are separate offenses, carrying vastly different penalties, distinguished only by
the requirement that a homicide punishable as firstdegree murder be committed with premeditation and
deliberation.” People v. Morrin, 187 N.W.2d 434, 448–
49 (Mich. Ct. App. 1971); see also Mich. Crim. J.I. 16.6
(comparing the elements of first-degree and seconddegree murder). 11 For this reason, “premeditation and
deliberation must be given independent meaning in a
prosecution for first-degree murder.” Morrin, 187
N.W.2d at 449. The “legislative classification of murder into two degrees would be meaningless if ‘deliberation’ and ‘premeditation’ were construed as requiring
no more reflection than may be involved in the mere
formation of a specific intent to kill.” People v. Hoffmeister, 229 N.W.2d 305, 307 (Mich. 1975) (quoting
People v. Anderson, 447 P.2d 942, 948 (Cal. 1968)). On
the contrary, the use of the terms “deliberate” and
“premeditated” denotes that first-degree murder
11

Compare Mich. Comp. Laws Ann. § 750.316 (first-degree
murder), with id. § 750.317 (second-degree murder). Though
there are other types of first-degree murder under Michigan law,
such as felony murder or murder of a law enforcement officer,
Davenport was accused only of first-degree murder involving a
“deliberate, and premeditated killing.” Id. § 750.316(a).

29a
requires “substantially more reflection on and comprehension of the nature of the act than the mere
amount of thought necessary to form the intent to
kill.” People v. Plummer, 581 N.W.2d 753, 757 (Mich.
Ct. App. 1998).
Michigan caselaw reveals two prerequisites for a
finding of premeditation and deliberation. First,
“[w]hile the minimum time necessary to exercise this
process is incapable of exact determination, the interval between initial thought and ultimate action
should be long enough to afford a reasonable man time
to subject the nature of his response to a second look.”
People v. Tilley, 273 N.W.2d 471, 473–74 (Mich. 1979)
(quoting People v. Vail, 227 N.W.2d 535 (1975)). And,
second, there must be evidence that the defendant
had—and took—a moment for calm reflection before
the murder: “[W]hen a homicide occurs during a sudden affray . . . it would be ‘a perversion of terms to
apply the term deliberate to any act which is done on
a sudden impulse.’” Id. at 473 (quoting Nye v. People,
35 Mich. 16, 19 (1876)). Thus, “[w]hen the evidence establishes a fight and then a killing, there must be a
showing of ‘a thought process undisturbed by hot
blood’ . . . . The critical inquiry is not only whether the
defendant had the time to premeditate, but also
whether he had the capacity to do so.” Plummer, 581
N.W.2d at 757 (quoting Morrin, 187 N.W.2d at 449);
accord 3A Gillespie Mich. Crim. L. & Proc. § 91:12 (2d
ed. 2020). For these reasons, the Michigan Supreme
Court has held that the mere fact that a defendant repeatedly stabbed the decedent, inflicting “a great
many wounds,” was insufficient evidence of premeditation and deliberation to support a conviction for
first-degree murder. Hoffmeister, 229 N.W.2d at 307–

30a
08. The court concluded: “There is no basis on this record for an inference that between the successive, potentially lethal blows the killer calmly, in a cool state
of mind, ‘measured and evaluated’ and subjected ‘the
nature of his response to a second look.’” Id. (quoting
Morrin, 187 N.W.2d at 449). 12
In this case, the amount of time the strangling
must have taken is the only evidence of premeditation
and deliberation the prosecution pointed to in its closing argument. Certainly, the duration of the strangling demonstrates the intent to kill—or at least the
intent to cause great bodily harm—required for second-degree murder. See Mich. Crim. J.I. 16.5. But it is
not definitive proof of premeditation or deliberation.
“[E]vidence of manual strangulation can be used as
evidence that a defendant had an opportunity to take
a ‘second look.’” People v. Johnson, 597 N.W.2d 73, 79
(Mich. 1999) (quoting People v. Furman, 404 N.W.2d
246, 249–50 (Mich. Ct. App. 1987)). Yet, by itself, it is
not conclusive: “[N]either the brutal nature of a killing
nor manual strangulation alone is sufficient to show
12 The

Michigan Supreme Court recently characterized Hoffmeister as a case where “there was no basis for the jury to conclude that the defendant had adequate time for a ‘second look’”
because “the only evidence presented was the number of stab
wounds.” People v. Oros, 917 N.W.2d 559, 567 (Mich. 2018). In
Oros, the court held that the evidence of deliberate and premeditated first-degree murder was legally sufficient because there
was additional evidence besides the number of stab wounds. Id.
at 567–70. Oros distinguished Hoffmeister; it did not overrule it.
See id. at 570 (“Our holding is consistent with Hoffmeister as we
do not hold today that the sheer number of stab wounds alone
established the elements of premeditation and deliberation.”).
And without regard to Oros, Hoffmeister was good law at the relevant time—Davenport’s trial was in 2008.

31a
premeditation . . . .” Id. That is especially true when,
as here, there is substantial evidence that the strangulation occurred in the course of a fight and thus “the
homicide occurred during an affray whose nature
would not permit cool and orderly reflection.” Plummer, 581 N.W.2d at 757 (quoting Morrin, 187 N.W.2d
at 450).
The record contains substantial evidence that a
fight took place. One witness testified that he asked
White to leave his house at about 2:30 a.m. because
she was “agitated” and “getting crazy” after smoking
some crack cocaine. Other witnesses testified that
White would get angry when she smoked crack cocaine and that she was “a spitfire” who had a reputation for fighting. Even the evidence that the State introduced of Davenport’s admission that he killed
White is consistent with this story: A prosecution witness testified that Davenport told him White “kept
coming back at him and it just got out of hand, and
that’s when he offed her.”
Based on the evidence presented, the only time
Davenport could have engaged in the requisite period
of calm reflection “undisturbed by hot blood” would
have been while he was strangling White. And the
only evidence of premeditation and deliberation the
prosecution pointed to in its closing was the time that
strangulation would have taken. Yet, under Michigan
law, evidence of manual strangulation alone is not
enough to prove premeditation. Johnson, 597 N.W.2d
at 79. The jury easily could have found that this was
second-degree murder, not first-degree murder, because “the homicide occurred during an affray whose
nature would not permit cool and orderly reflection.”

32a
Plummer, 581 N.W.2d at 757 (quoting Morrin, 187
N.W.2d at 450). The evidence of premeditation and deliberation was therefore not overwhelming.
The closeness of the case is further demonstrated
by the duration of the jury’s deliberations. In
Ruimveld, we observed that the case is not “open-andshut,” giving as partial support that “the jury deliberated for over three hours despite the simple facts.” 404
F.3d at 1016. This case was arguably even simpler;
given that Davenport admitted killing White, the only
disputed fact at trial was his state of mind, the critical
component of first-degree murder. Yet the jury still
deliberated for approximately six hours, through one
afternoon and into the next morning.
As to the merits, the dissent dismisses the analysis of applicable Michigan cases and law as “generalities.” Dissent at 45. Instead, the dissent wholly frames
its argument on the “strikingly similar” case of People
vs. Johnson, dissent at 27, which it says results in “the
inescapable conclusion” that Johnson brands Davenport’s conduct as premeditated murder, dissent at 44.
As noted above, Johnson does have applicability as
part of the full examination of Michigan law. But employing Johnson requires acknowledging that review
by the Michigan Supreme Court was granted solely to
determine whether it was error to deny Johnson’s motion for directed verdict. The question before that
Court was whether there was “sufficient evidence to
justify a rational tryer of fact in finding guilt beyond
a reasonable doubt.” Johnson, 597 N.W.2d at 75–76.
That is not the question we ask here. Under
Brecht, we ask whether the constitutional violation of
shackling Davenport throughout the trial had a

33a
“substantial and injurious effect or influence in determining the jury’s verdict.” Brecht, 507 U.S. at 637. It
is, of course, possible that a trial record contains evidence sufficient to convict a defendant of a crime but
the jury, considering that evidence and making the
credibility determinations entrusted to it as the trial’s
factfinder, votes to acquit. We are aware of no case in
which a habeas petitioner claiming a constitutional violation at trial has been required to satisfy a directed
verdict standard of review in order to find that the violation was not harmless. We have held that we will
not find a constitutional violation to be harmless
simply because the record reflected enough evidence
to support the jury’s verdict. McCarley, 801 F.3d at
665. In fact, “[t]ime and again, the Supreme Court has
emphasized that a harmless-error inquiry is not the
same as a review for whether there was sufficient evidence at trial to support a verdict.” Jensen v. Clements, 800 F.3d 892, 902 (7th Cir. 2015) (collecting
cases). Even if there was “‘ample evidence’ to support
the conviction,” that would be “irrelevant” because
“the question before us is not whether there was sufficient evidence to support the jury’s conclusions, but
rather whether the evidence is so strong that a reviewing court can be assured that the shackling did
not affect the jury’s conclusions.” Ruimveld, 404 F.3d
at 1017 n.5. Even if we were to assume that Johnson’s
holding dictates a finding that the State introduced
sufficient evidence to support conviction of Davenport,
that is not sufficient to show that the unconstitutional
shackling was harmless. Thus, Johnson provides no
“inescapable conclusion” that controls this case. Dissent at 44.

34a
2. Juror Testimony
In addition to arguing that this is a case of overwhelming evidence, the State tries to meet its burden
of showing that the shackling did not have a substantial and injurious effect or influence on the jury’s verdict by pointing to the testimony of jurors that the
shackling did not affect their deliberations. The state
courts also relied on this testimony in denying Davenport relief after the evidentiary hearing. But, as Davenport argues, the Supreme Court has made clear
that jurors’ subjective testimony about the effect
shackling had on them bears little weight. If a practice
“‘involves such a probability that prejudice will result
that it is deemed inherently lacking in due process,’”
like shackling a defendant without case-specific reasons, “little stock need be placed in jurors’ claims to
the contrary. Even though a practice may be inherently prejudicial, jurors will not necessarily be fully
conscious of the effect it will have on their attitude toward the accused.” Holbrook, 475 U.S. at 570 (quoting
Estes v. Texas, 381 U.S. 532, 542–43 (1965) (citations
omitted). Since Holbrook was decided, a voluminous
body of social-science research has demonstrated support for Holbrook’s conclusion. 13 The dissent finds this
13

See generally Jennifer L. Eberhardt, Biased: Uncovering
the Hidden Prejudice that Shapes What We See, Think, and Do
(2019). This research suggests that the shackling of Davenport,
a 6’5” tall black man weighing approximately 300 pounds, would
tend to “prime” racialized presumptions of dangerousness and
guilt. See, e.g., Mark W. Bennett & Victoria C. Plaut, Looking
Criminal and the Presumption of Dangerousness: Afrocentric Facial Features, Skin Tone, and Criminal Justice, 51 U.C. Davis L.
Rev. 745, 785 (2018) (“Repeated studies indicate Blacks with
darker skin tones and stronger Afrocentric facial features ‘activate automatic associations with negative behavioral stereotypes

35a
footnoted evidence to be improper on the basis that
our review must be guided only by established Supreme Court law, “not abstract sociology.” Dissent at
42. But it was the Supreme Court in Holbrook that
stated the danger of relying on after-the-fact juror
conclusions regarding “inherently prejudicial” actions
such as shackling because jurors may be not fully
aware of how such effects “their attitude toward the
accused.” Holbrook, 475 U.S. at 570. This scientific evidence merely provides further support for the Supreme Court’s determination.
Moreover, two aspects of the jurors’ factual testimony at the evidentiary hearing suggest that Davenport’s shackling may have prejudiced his trial. First,
when questioned three years after the trial, a majority
of jurors still remembered that they either saw his restraints or heard another juror remark on his shackles. This suggests the shackles made an impression.
Second, several jurors testified that they thought Davenport might be dangerous when they saw his restraints. The dissent asserts that there is “little reason to believe” that juror testimony concerning
whether Davenport was dangerous was due to his partial shackling, as opposed to the “gruesome” killing at
issue in this case. Dissent at 45. This statement misreads the record; those jurors were not making a holistic assessment of whether Davenport was
of Black men, such as aggression, violence, and criminality.’” (citations omitted)); Justin D. Levinson et al., Guilty by Implicit
Racial Bias: The Guilty/Not Guilty Implicit Association Test, 8
Ohio St. J. Crim. L. 187, 207 (2010) (“[W]e found that participants held implicit associations between Black and Guilty. . . .
[T]hese implicit associations were meaningful—they predicted
judgments of the probative value of evidence.”).

36a
dangerous in light of all that they knew about him.
Rather, the jurors were asked specifically whether
Davenport’s shackling left them with the impression
that he was dangerous at the time they observed the
restraints.
Juror James Vanderveen testified as follows:
Q: And given that you saw the restraints at
some portions of the trial, did you think
that [Davenport] might be dangerous?
A: Well I would assume that, yes.
Q: Okay. Did you think that he had done something wrong and that is why he was shackled?
A: Well it was a murder trial, correct?
Similarly, Juror Robert Jankford stated that he
noticed the shackles during the trial and thought that
the purpose of the shackles was “[s]ecurity.” Mr. Jankford was then asked, “[d]id you think that he might be
dangerous?” Mr. Jankford replied “[a]bsolutely.” Juror Bradley Lewis described how, initially, he did not
notice the shackles on Davenport, but that a different
juror pointed out the shackles to him and other jurors
while the jurors were sitting in the jury box during the
middle of the trial.
The fact that Davenport stood charged with, and
was later convicted of, a violent crime does not provide
a reason to write off the jurors’ explanations of their
impressions concerning Davenport’s shackles. If anything, they underscore the due process concerns that

37a
unconstitutional shackling raises. Leaving jurors with
an impression that a defendant has already been determined to be dangerous is particularly troublesome
when that defendant is charged with a crime a jury
might expect a dangerous person to commit. Thus, the
charges at issue in this case do not excuse the error
created by the unconstitutional shackling, they exacerbate it.
That these jurors did not attribute great significance to the shackles, does not mean the shackling
had no effect. As the Supreme Court has observed,
shackling a defendant “almost inevitably implies to a
jury, as a matter of common sense, that court authorities consider [him] a danger to the community . . . .
[I]t thereby inevitably undermines the jury’s ability to
weigh accurately all relevant considerations . . . .”
Deck, 544 U.S. at 633 (discussing the penalty phase of
capital trials). Thus, “common sense” teaches that a
defendant in shackles is in peril of being presumed
dangerous rather than presumed innocent.
The Ninth Circuit relied on this logic in granting
a habeas petition in a case with analogous facts.
Rhoden v. Rowland was a case where, much like this
one, “several of the jurors actually saw the shackles
during the trial” and “[a]t least two jurors remember[ed] other jurors making comments to them about
the shackles.” 172 F.3d 633, 637 (9th Cir. 1999). As in
this case, the defendant “was charged with violent
crimes” and the evidence was disputed—indeed, “the
jurors deliberated for over nine hours over three
days.” Id. The court concluded, “[b]ecause at least
some of the jurors saw the shackles and because the
shackles essentially branded Rhoden as having a

38a
violent nature in a case where his propensity for violence was the crucial issue, the shackles had ‘substantial and injurious effect or influence in determining
the jury’s verdict’ . . . .” Id. (quoting Brecht, 507 U.S.
at 637). The shackling was therefore not harmless error. Id.
Here, similarly, the shackles branded Davenport
as having a violent nature in a case where the crucial
point of contention was whether he engaged in deliberate and premeditated murder. Given the closeness
of this question, the number of jurors who observed
the restraints, and the inherently prejudicial nature
of shackling, the State has failed to carry its burden
to show that the shackles did not have a “substantial
and injurious effect or influence in determining the
jury’s verdict.” Brecht, 507 U.S. at 637; see Ruimveld,
404 F.3d at 1018; Rhoden, 172 F.3d at 637.
III. CONCLUSION
For the foregoing reasons, we REVERSE the district court’s denial of Davenport’s § 2254 petition,
GRANT Davenport a conditional writ of habeas corpus that will result in his release from prison unless
the State of Michigan commences a new trial against
him within 180 days from the date of this opinion and
REMAND the case for further proceedings consistent
with this opinion.

39a
_________________
DISSENT
_________________
CHAD A. READLER, Circuit Judge, dissenting.
In the federal courts, it is hard to imagine a habeas
case where AEDPA (more formally known as The Antiterrorism and Effective Death Penalty Act) does not
help guide our review. Enacted by Congress in 1996,
AEDPA brought meaningful change to how habeas
claims are treated by the federal courts. Short of declaring the law unconstitutional, we are bound to enforce it. And we have, all across the habeas case-law
landscape.
But in today’s decision granting habeas relief,
AEDPA is conspicuously absent. As we sit in review of
the Michigan courts’ judgment that any error in Davenport’s state court proceedings was harmless, we
would naturally apply 28 U.S.C. § 2254(d)(1), as
amended by AEDPA. Yet the majority opinion fails to
ask the fundamental question posed by § 2254(d)(1):
Whether the Michigan courts’ determination “was
contrary to, or involved an unreasonable application
of, clearly established Federal law”? Id.
Failing to do so puts us at odds with Davis v.
Ayala, 135 S. Ct. 2187 (2015). Ayala reminds us of the
two inquiries a federal habeas court must make when
assessing the impact of a constitutional error in a collateral state court proceeding. One, did the error have
a “substantial and injurious effect or influence in determining the jury’s verdict,” the collateral review
standard announced in Brecht v. Abrahamson, 507
U.S. 619, 623 (1993)? Ayala, 135 S. Ct. at 2198–99

40a
(internal quotation marks omitted). Two, honoring
AEDPA, was the state court’s “harmlessness determination itself” an “unreasonable application of clearly
established federal law”? Id. (emphasis in original).
The latter is particularly important here, when the
Supreme Court has neither previously found a constitutional violation in a comparable setting nor held
that a state court may not consider post-trial juror testimony in concluding that a constitutional error was
harmless. See Deck v. Missouri, 544 U.S. 622 (2005)
(holding that the routine use of physical restraints
fully visible to the jury violates due process); Holbrook
v. Flynn, 475 U.S. 560 (1986) (addressing whether potential jurors hypothetically would be prejudiced by
subsequent courtroom security measures). The Brecht
inquiry may “subsume” some AEDPA requirements.
Ayala, 135 S. Ct. at 2198. But, Ayala makes clear, it
does not consume them altogether.
To my eye, the majority decision entrenches us as
the lone circuit to grant habeas relief from a state
court judgment without applying AEDPA deference to
that court’s conclusion that a trial error was harmless.
In the wake of Ayala, every other circuit to reach the
question has agreed that a habeas petitioner, before
he may be granted habeas relief, must satisfy the distinct requirements of both Brecht and AEDPA. We
have done the same, just not today. See Stewart v.
Trierweiler, 867 F.3d 633, 636–37, 640 (6th Cir. 2017)
(applying Ayala and measuring a state court’s harmless error analysis against the backdrop of both Brecht
and AEDPA before holding that the state court’s
harmless error determination was not “so lacking in
justification that there was an error well understood
and comprehended in existing law beyond any

41a
possibility for fairminded disagreement”). It may be
that a federal court can deny habeas relief by “go[ing]
straight to Brecht.” Ruelas v. Wolfenbarger, 580 F.3d
403, 413 (6th Cir. 2009); see also Hollman v. Sprader,
803 F. App’x 841, 843–45 (6th Cir. 2020) (denying habeas relief on AEDPA grounds after observing that a
federal habeas court may choose to take a “shortcut”
to Brecht in denying habeas relief). But we stand
alone as the only Circuit to award habeas relief without expressly applying the requirements of both
Brecht and AEDPA. Cf. Reiner v. Woods, 955 F.3d 549,
556–57 (6th Cir. 2020) (recognizing a “colorable argument” that Ruelas and its progeny are incorrect in
light of Ayala).
Because the majority opinion fails to employ an
AEDPA analysis before granting habeas relief, because the majority opinion does not cite a Supreme
Court decision contrary to the harmless error determination reached by the Michigan courts, and because
the Michigan Supreme Court previously affirmed a
strikingly similar first-degree murder conviction in
People v. Johnson, 597 N.W.2d 73 (Mich. 1999), I respectfully dissent.
I. AEDPA Requires Federal Courts To Show
Great Deference To State Court Adjudications
On The Merits, Including Harmless Error Determinations.
1. I start with a point of agreement. In recognition
of the deference owed to a state court’s judgment in a
habeas posture, Ayala, the majority opinion, and I all
agree that we employ the “actual prejudice” standard
from Brecht in assessing the impact of a constitutional
error on a habeas petitioner’s state proceeding.

42a
Guided by the Brecht standard, we may grant habeas
relief only where there is “grave doubt about whether
a trial error of federal law had substantial and injurious effect or influence in determining the jury’s verdict.” Ayala, 135 S. Ct. at 2198 (quoting O’Neal v.
McAninch, 513 U.S. 432, 436 (1995)) (internal quotation marks omitted). In the words of Ayala, there
“must be more than ‘a reasonable probability’ that the
error was harmful.” Id. (quoting Brecht, 507 U.S. at
637).
But that is not all Ayala had to say. The Supreme
Court emphasized that AEDPA’s requirements are
also alive and well when it comes to collateral review
of a state court’s harmless error analysis. AEDPA’s
standards are distinct, and they are stringent. Brecht
permits a habeas court to grant relief where any “error of federal law” had a prejudicial effect on the verdict. AEDPA, on the other hand, permits habeas relief
only where the state court reached “a decision that
was contrary to, or involved an unreasonable application of, clearly established Federal law.” 28 U.S.C. §
2254(d)(1). That is, the rare set of cases for which the
“necessity to apply” an earlier rule recognized by the
Supreme Court “[is] beyond doubt.” Yarborough v. Alvarado, 541 U.S. 652, 666 (2004). And that deferential
standard applies both to a state court’s merits determination as well as its harmless error assessment.
Ayala, 135 S. Ct. at 2198–99. AEDPA could thus foreclose relief even in cases in which Brecht’s harmless
error standard is satisfied—most notably cases in
which the purported prejudice is based on a ground for
relief not yet clearly established by the Supreme
Court. Yarborough, 541 U.S. at 666. The majority fails
to consider this critical feature of AEDPA.

43a
Compare Ayala to the majority opinion. First
Ayala. There, the Supreme Court considered in a habeas context a state court’s determination that any
constitutional error in the collateral state court proceeding was harmless. In so doing, the Supreme Court
disagreed with the Ninth Circuit’s conclusion that “a
state court’s harmlessness determination has no significance under Brecht.” 135 S. Ct. at 2198. Rather, a
habeas petitioner, in addition to satisfying Brecht,
must also satisfy AEDPA, which continues to set forth
a precondition on the grant of habeas relief. Id. Earlier
post-AEDPA cases applying Brecht, the Supreme
Court acknowledged, may have muddied the point.
See id. (citing Fry v. Pliler, 551 U.S. 112, 120 (2007)).
But those decisions, Ayala explained, “would have had
no possible basis for holding . . . that Brecht somehow
abrogates the limitation on federal habeas relief that
§ 2254(d) plainly sets out.” 135 S. Ct. at 2198.
Honoring this precondition, Ayala undertook the
familiar AEDPA analysis. The Supreme Court cited
the standards set out in § 2254(d) and made clear that
a federal court could not grant relief in this context
unless the state court’s decision “was contrary to or
involved an unreasonable application of clearly established federal law.” Id. It re-emphasized that the
“highly deferential AEDPA standard applies,” and
noted that, in the harmless error context, a federal
court must determine whether a state court applied
Supreme Court precedent “in an objectively unreasonable manner” in denying relief to the petitioner. Id. at
2198–99 (internal quotation marks and citations
omitted). And it concluded that habeas relief may not
issue “under § 2254 unless the harmlessness

44a
determination itself was unreasonable.” Id. at 2199
(internal quotation marks and citations omitted).
Now the majority opinion. Virtually all of these
AEDPA standards are missing. In analyzing whether
to grant habeas relief, the majority opinion barely
mentions the “highly deferential AEDPA standard,”
instead claiming that the Brecht standard does all of
the landmark statute’s work. Invoking that AEDPAfree framework, the majority opinion ultimately pays
no deference to the Michigan courts’ conclusion that
any error in Davenport’s case was harmless. People v.
Davenport, 832 N.W.2d 389, 390 (Mich. 2013) (“Given
the substantial evidence of guilt presented at trial, we
cannot conclude that there was an unacceptable risk
of impermissible factors coming into play.”); People v.
Davenport, No. 306868, 2012 WL 6217134, at *2
(Mich. Ct. App. Dec. 13, 2012) (per curiam) (finding
that the state trial court properly relied on juror testimony regarding prejudice and concluding that “[a]ll
of the evidence indicated that the shackling did not
affect the verdict in any way”). Blatantly disregarding
“principles of comity, finality, and federalism” in this
manner is precisely what AEDPA was crafted to
avoid. Woodford v. Garceau, 538 U.S. 202, 206 (2003);
see also Williams v. Taylor, 529 U.S. 362, 386 (2000)
(Through AEDPA, “Congress intended federal judges
to attend with the utmost care to state-court decisions
. . . before concluding that those proceedings were infected by constitutional error sufficiently serious to
warrant issuance of the writ.”).
Compounding those conspicuous omissions, the
majority opinion then fails to ask or answer whether
the state court’s harmless error determination was an

45a
“unreasonable application of clearly established Federal law.” 28 U.S.C. § 2254(d)(1). Ordinarily, we would
assess whether the Michigan courts’ harmless error
analysis “was so lacking in justification that there was
an error well understood and comprehended in existing law beyond any possibility for fairminded disagreement.” Ayala, 135 S. Ct. at 2199 (quoting Harrington v. Richter, 562 U.S. 86, 103 (2011)). But other
than quoting the Michigan Supreme Court’s holding,
the majority ignores the underlying state court decisions altogether—a textbook example of acting as if “a
state court’s harmlessness determination has no significance under Brecht.” Id. at 2198.
2. While Supreme Court precedent leads me ultimately to disagree with my friends in the majority,
the majority opinion’s conclusion is not without its
own precedent. But it is mistaken precedent, in my
mind, especially in the aftermath of Ayala. The notion
that we need pay no deference to a state court’s harmless error determination finds its roots in a line of our
cases starting with Ruelas, 580 F.3d at 412. In a nutshell, Ruelas held that federal habeas courts reviewing state harmless error decisions may push aside
AEDPA’s stringent statutory requirements in favor of
applying only Brecht’s “substantial and injurious effect” test. Where, one might ask, did Ruelas find such
sweeping authority to close its eyes to an act of Congress? From one word in Fry v. Pliler: It “makes no
sense to require formal application of both tests
(AEDPA/Chapman and Brecht) when the latter obviously subsumes the former.” Id. (quoting Fry, 551 U.S.
at 120) (emphasis added). See Chapman v. California,
386 U.S. 18, 24 (1967). Embracing the term “subsumes,” Ruelas concluded that the Brecht test fully

46a
accounts for all of AEDPA’s requirements, effectively
reading AEDPA out of existence on collateral harmless error review. Ruelas, 580 F.3d at 412.
But Ruelas failed to consider Fry in context. Unlike here, and unlike in Ruelas, the collateral state
court decision at issue in Fry had not passed judgment
on harmless error, meaning the Supreme Court was
not reviewing a state court’s harmless error analysis.
Fry addressed a different question, namely, how to
measure alleged prejudice resulting from a constitutional error in collateral proceedings when the error is
first recognized on federal habeas review. 551 U.S. at
114.
To answer that question, the Supreme Court had
to harmonize its prior decisions in Chapman and
Brecht in the aftermath of AEDPA. See id. Chapman
set forth the standard courts are to use in assessing
constitutional error on direct review: “[B]efore a federal constitutional error can be held harmless, the reviewing court must be able to declare a belief that it
was harmless beyond a reasonable doubt.” 386 U.S. at
24. The burden of meeting this standard rests with the
government. See id. at 23–24. Brecht, by comparison,
addressed the prejudice standard federal courts are to
employ after finding (or assuming) constitutional error in collateral proceedings. It held that federal habeas relief may issue only when a constitutional error
actually prejudiced the defendant, 507 U.S. at 637–
38—in stark contrast to the government’s burden to
disprove such prejudice on direct review. Chapman,
386 U.S. at 24.
And how did AEDPA, enacted only three years after the decision in Brecht, impact the interplay

47a
between Chapman and Brecht? The petitioner in Fry
asserted that, in the aftermath of AEDPA, federal
courts were to apply in habeas proceedings the direct
review standard set forth in Chapman through the
lens of AEDPA. In other words, the petitioner argued,
AEDPA in essence replaced the actual prejudice
standard under Brecht with a joint AEDPA/Chapman
standard for claims under § 2254. Adopting that joint
standard, however, would have lowered the bar for
state habeas petitioners in a sense by allowing federal
courts to grant habeas relief from state court judgments without finding any actual prejudice to the petitioner. That was so because Chapman places the
burden on the government to disprove prejudice,
Chapman, 386 U.S. at 24, rather than requiring an
affirmative showing of prejudice, Brecht, 507 U.S. at
637.
What the Fry Court confronted, then, was the
counterintuitive notion that AEDPA made it easier rather than harder for a petitioner to obtain habeas relief when measuring prejudice arising from a purported error. Rejecting that odd result, the Supreme
Court applied the more restrictive Brecht standard.
To hold otherwise would have allowed federal courts
to “[overturn] final and presumptively correct convictions on collateral review because the State cannot
prove that an error is harmless under Chapman.” Id.
In other words, Fry was merely heeding Brecht’s
warning about expanding collateral review beyond
carefully circumscribed limits.
But that does not mean, contrary to the understanding in Ruelas and today’s majority opinion, that
if the AEDPA/Chapman prejudice standard is less

48a
stringent than Brecht, AEDPA does nothing at all in
the harmless error context. AEDPA, remember, does
not simply articulate a prejudice standard. It also cabins federal habeas review by preventing habeas courts
from extending grounds for relief beyond those explicitly required by Supreme Court precedent, independent of any prejudice those errors may have caused. In
other words, relief under AEDPA requires more than
prejudice. It also requires habeas courts to extract
concrete legal rules from Supreme Court precedent, to
apply them to the letter, and not to expand them as
we might on direct review. See Yarborough, 541 U.S.
at 666.
This fundamental AEDPA principle was frontand-center in Yarborough. There, the Supreme Court
reviewed the Ninth Circuit’s grant of § 2254 relief
based upon a violation of Miranda v. Arizona, 384 U.S.
436 (1966). In awarding habeas relief, the Ninth Circuit faulted the state court for failing to consider the
petitioner’s age. But age was not a factor the Supreme
Court had explicitly required courts to consider in that
context. By requiring the state court to do so, the
Ninth Circuit extended—rather than applied—existing law, a practice wholly inconsistent with AEDPA:
“Section 2254(d)(1) would be undermined if [federal]
courts introduced rules not clearly established under
the guise of extensions to existing law.” Yarborough,
541 U.S. at 666. “Evaluating whether a rule application was unreasonable requires considering the rule’s
specificity,” the Supreme Court explained. Id. at 664.
The more general the rule, for example, “the more leeway courts have in reaching outcomes in case-by-case
determinations.” Id. But in all events, in cases

49a
warranting habeas relief, “the necessity to apply the
earlier rule will be beyond doubt.” Id. at 666.
We followed that tailored approach in the analogous setting of Mendoza v. Berghuis, 544 F.3d 650 (6th
Cir. 2008). Like here, at issue there was a defendant’s
shackling at trial. Id. at 655. And then, as today, the
relevant Supreme Court authority, for purposes of §
2254(d)(1), was Deck, 544 U.S. at 622. In view of the
key factual distinctions between Mendoza and Deck,
“it [was] not obvious that Deck should be extended to
the particular facts present” in Mendoza. 544 F.3d at
655. AEDPA, moreover, forbids “breaking new ground
on unsettled legal issues or interpreting existing
caselaw to decide an open question in our jurisprudence.” Dewald v. Wriggelsworth, 748 F.3d 295, 300
(6th Cir. 2014) (internal quotations and citations
omitted). Accordingly, we denied habeas relief in Mendoza. 544 F.3d at 655.
The Brecht standard does not capture this critical
feature of AEDPA. AEDPA requires a federal habeas
court to assess whether Supreme Court precedent put
a state court on notice of precise constitutional limitations. See Yarborough, 541 U.S. at 665. Brecht, on the
other hand, writes largely on a clean slate. Unchecked
by then-existing Supreme Court precedent, Brecht
simply asks a federal habeas court to assess the prejudice arising from an alleged error. And that distinction can make all the difference. A habeas claim alleging a deeply prejudicial trial error may easily clear
Brecht’s “actual prejudice” bar. But the claim may
nonetheless fail AEDPA’s comity-inspired requirements if the reviewing court must create new law or
extend existing Supreme Court precedent to find

50a
underlying legal error, or that the error was not harmless. Id. at 666.
It follows that before awarding habeas relief today, we must explain why no fairminded jurist could
find that the differences between this case and the Supreme Court’s holdings in Deck (addressing shackling)
and Holbrook (addressing whether potential jurors
can fairly predict whether they will be improperly influenced by courtroom security measures), could justify a different outcome. See Yarborough, 541 U.S. at
663–66. Yet the majority opinion—tellingly, to my
mind—simply refuses to do so. Rather than engaging
in this demanding AEDPA analysis, the majority
opinion brushes it aside, concluding that the AEDPA
standard is “subsumed” by Brecht. Which begs the
question: If, as the majority opinion posits, Davenport’s claim passes the “significantly harder” Brecht
test, why does the majority opinion not show its work,
as the state asked us to do, in finding that AEDPA is
also satisfied?
3. Any lingering confusion over whether AEDPA
also applies alongside Brecht in the context of reviewing a state court’s harmless error determination was
put to rest by Ayala. As explained above, Ayala repeatedly referenced AEDPA’s standards. It then applied those standards, in addition to applying the
Brecht standard, in collaterally reviewing a state
court’s harmlessness determination. See Ayala, 135 S.
Ct. at 2198–99 (noting that habeas relief may not issue “under § 2254 unless the harmlessness determination itself was unreasonable”) (internal quotation
marks and citations omitted); see also id. at 2207
(“The most that Ayala can establish is that reasonable

51a
minds can disagree about whether the prosecution’s
fears were well founded, but this does not come close
to establishing ‘actual prejudice’ under Brecht. Nor
does it meet the AEDPA standard.”) (emphasis added).
While Ruelas, decided six years before Ayala,
might be excused for believing that habeas courts can
dispense with AEDPA in the harmless error context,
our cases that follow Ayala cannot. That starts with
McCarley v. Kelley, 801 F.3d 652, 665 (6th Cir. 2015),
and extends through O’Neal v. Balcarcel, 933 F.3d
618, 625 (6th Cir. 2019), and Reiner, 955 F.3d at 556–
57, our most recent published opinions to follow
Ruelas. The majority opinion holds out Reiner in particular as a beacon of light in the continuing postAyala march to vindicate Ruelas. But to do so, the majority opinion must first rewrite Reiner. The majority
opinion quotes Reiner as follows: “The state argues
that the Supreme Court’s subsequent decision in Davis v. Ayala changed this dynamic . . . [t]he problem
for the state is that our precedent forecloses this approach.” 955 F.3d at 556–57. What, one might wonder,
has the majority opinion omitted through its use of ellipsis? Only Reiner’s Ayala-inspired recognition that
the state’s position is a “colorable argument,” but foreclosed by our Circuit precedent. Id. In that sense,
Reiner confesses itself more a prisoner to our past mistakes than a proponent of them.
Confined by earlier flawed precedents, Reiner,
like McCarley and O’Neal before it, thus merely continued our earlier error in Ruelas, citing that decision
for the proposition that federal courts need not engage
in an AEDPA analysis of a state court’s harmless error conclusion because the Brecht test does the job by

52a
itself. That collective conclusion, it bears repeating,
overlooks the fact that Fry—from where much of this
misunderstanding emanates—was not reviewing a
state court’s harmless error determination, to which
AEDPA would plainly apply. See Fry, 551 U.S. at 114
(determining the applicable standard of review when
the state court “did not review [a trial error] for harmlessness” under Chapman). It also overlooked many
passages from Ayala that undermine Ruelas. In fact,
it ignored all of those in favor of one other: That “a
prisoner who seeks federal habeas corpus relief must
satisfy Brecht, and if the state court adjudicated his
claim on the merits, the Brecht test subsumes the limitations imposed by AEDPA.” Ayala, 135 S. Ct. at
2199. But that passage is not license to cast aside
AEDPA. In fact, much the opposite. The Supreme
Court there was reminding us that while the Brecht
test always applies on collateral review, AEDPA also
applies where, unlike in Fry, the state court reaches
the question of harmless error. And where an underlying state court decision concludes that any error in
the petitioner’s state court proceeding was harmless,
the Brecht test, having subsumed AEDPA, takes on
the additional requirements and demands in §
2254(d). Id. While Brecht in this sense may “subsume”
the AEDPA analysis, nowhere has the Supreme Court
declared that Brecht consumes AEDPA, rendering it
null and void in the harmless error setting.
Nor, I might add, could the Supreme Court so easily have dispensed with AEDPA’s requirements even
had it desired to do so. AEDPA is a valid act of Congress. It has not been declared unconstitutional or
otherwise unenforceable. It would be quite something,
then, for the Supreme Court to nonetheless make that

53a
law disappear by “subsuming” it in the Brecht standard. Johnson v. Lamas, 850 F.3d 119, 133 (3d Cir.
2017) (“[T]he Fry Court did not hold—and would have
had no possible basis for holding—that Brecht somehow abrogate[d] the limitation on federal habeas relief
that § 2254(d) plainly sets out.”) (quoting Ayala, 135,
S. Ct. at 2198); see also Sifuentes v. Brazelton, 825
F.3d 506, 534 (9th Cir. 2016) (same). That is especially
true when one considers that AEDPA followed Brecht,
not the other way around. Functionally, Brecht could
not have subsumed (or consumed) the AEDPA statute
when the decision was announced. At that point, after
all, the statute was still in the mind’s eye.
That AEDPA amplifies the Brecht standard is all
the more apparent when one considers that Congress
legislates against the backdrop of Supreme Court decisions. See Forest Grove Sch. Dist. v. T.A., 557 U.S.
230, 239–40 (2009) (internal quotations omitted). Noting the limitations on federal habeas review already
in place following Brecht, Congress, through AEDPA,
imposed “new requirements” on when habeas relief
could be granted by a federal court. Felker v. Turpin,
518 U.S. 651, 662 (1996) (“Title I of the Act has
changed the standards governing our consideration of
habeas petitions by imposing new requirements for
the granting of relief to state prisoners.”). Those additional requirements “limited rather than expanded
the availability of habeas relief.” Fry, 551 U.S. at 119.
Yet today, they are absent.
Shifting blame to the state for this dubious omission, and perhaps hedging its bets, the majority opinion contends (in a sentence) that the state conceded
away AEDPA review of the Michigan courts’ harmless

54a
error determination. But the state conceded no such
thing. Both Michigan’s brief and its statements at oral
argument reflect the state’s repeated contention that
AEDPA is not merely Brecht’s afterthought. Appellee
Br. at 15, 28; Oral Argument at 14:10–17:34 (Michigan’s counsel citing Ayala and arguing at length that
the state court’s harmless error analysis was not counter to Supreme Court precedent); see also Reiner, 955
F.3d at 556–57 (Michigan advocating that Ayala requires AEDPA review of a harmless error determination). Nor could the state concede the point away, in
the context of AEDPA review. Section 2254(d)(1) requires that we give deference to a state court’s decision on the merits, including any harmless error determination. And we owe that statutorily mandated
deference regardless of how the state or Davenport
might characterize the decision. Langley v. Prince,
926 F.3d 145, 162–63 & n.8 (5th Cir. 2019) (en banc)
(citing Brown v. Smith, 551 F.3d 424, 428 n.2 (6th Cir.
2008), abrogated on other grounds, Cullen v. Pinholster, 563 U.S. 170 (2011)).
4. In view of this legislative and precedential
backdrop, it is perhaps no surprise that every other
federal appellate court to take up the issue post-Ayala
has agreed that the standards articulated in both
Brecht and AEDPA apply to a habeas court’s review of
a state court’s harmless error analysis. By my count,
at least seven other circuits have granted AEDPA deference to a state court’s determination that a constitutional error was harmless:
• Second Circuit. Orlando v. Nassau County District Attorney’s Office, 915 F.3d 113, 127 (2d Cir.
2019) (“When a state court makes a harmless

55a
error determination on direct appeal, we owe
the harmlessness determination itself deference under [AEDPA].”) (internal quotations
and citations omitted);
• Third Circuit. Johnson v. Lamas, 850 F.3d 119,
136 (3d Cir. 2017) (“[W]e cannot say that the
Superior Court’s determination that Slaughter’s statement was harmless was so lacking in
justification that we should refuse to give it
AEDPA deference.”) (internal quotations and
citations omitted); Johnson v. Superintendent
Fayette SCI, 949 F.3d 791, 804 (3d Cir. 2020)
(reviewing an “undecided issue of harmless error de novo” under Brecht and observing that a
“different standard of review” augmented by
AEDPA applies under Lamas and Ayala when
the state court reached the question of harmlessness on the merits);
• Seventh Circuit. Long v. Pfister, 874 F.3d 544,
547–48 (7th Cir. 2017) (en banc) (“The Appellate Court of Illinois ruled that any error was
harmless in light of the other evidence inculpating Long. Davis v. Ayala . . . holds that a
harmless-error decision is one on the merits as
§ 2254(d) uses that phrase.”) (internal quotations omitted); see also id. at 556 (Hamilton,
Rovner, & Williams, JJ., dissenting) (finding
that habeas relief was warranted where each
harmless error inquiry was satisfied, including
whether the error was harmless under directly
on-point Supreme Court precedent, consistent
with AEDPA review);

56a
• Eighth Circuit. Davis v. Grandienard, 828
F.3d 658, 666 (8th Cir. 2016) (“We fail to find
any unreasonable application of clearly-established federal law in the Minnesota Supreme
Court’s decision . . . explaining that any error
committed by the state trial court when it admitted the inadmissible portion of Davis’s
statement was harmless . . . .”);
• Ninth Circuit. Rademaker v. Paramo, 835 F.3d
1018, 1024 (9th Cir. 2016) (“[I]t was not objectively unreasonable for the state appellate
court to conclude that the evidence supported
the jury’s finding . . . thus rendering the charging error harmless beyond a reasonable
doubt.”); see also Sifuentes, 825 F.3d at 534;
• Tenth Circuit. Malone v. Carpenter, 911 F.3d
1022, 1030 (10th Cir. 2018) (“So which standard prevails—Brecht or § 2254(d)(1)? The Supreme Court has answered the question by
saying that both apply.”);
• Eleventh Circuit. Al-Amin v. Warden, 932 F.3d
1291, 1299 (11th Cir. 2019) (“Ultimately, for a
federal court to grant habeas relief, it must be
true both that the state court’s application of
the Chapman harmless beyond a reasonable
doubt standard was objectively unreasonable
and that the error had a substantial and injurious effect or influence on the verdict.”) (emphasis in original) (internal citations and quotation marks omitted).
Of the many decisions in this uniform line of
cases, Malone is particularly instructive. Assessing on

57a
collateral review a state court’s conclusion that a constitutional error was harmless, the Tenth Circuit observed that “Brecht [] predated” AEDPA, and that
AEDPA “limited rather than expanded the availability of habeas relief.” 911 F.3d at 1029–30 (quoting Fry,
551 U.S. at 119). Notwithstanding the Supreme
Court’s observation in Fry that the AEDPA/Chapman
standard may be easier to satisfy than the Brecht
standard in some respects, the Supreme Court “d[id]
not exclude the application of AEDPA in the harmless-error context.” Id. at 1030 (citing Ayala, 135 S. Ct.
at 2198). Accordingly, the Tenth Circuit applied
AEDPA deference to the Oklahoma Court of Criminal
Appeal’s conclusion that any error in the petitioner’s
criminal proceeding was harmless. And because the
petitioner failed to satisfy AEDPA, the Tenth Circuit
denied relief. Id. at 1033 (“The OCCA’s determination
that the error in the voluntary-intoxication instruction was harmless was an eminently reasonable application of Chapman.”).
Against the backdrop of this unbroken line of decisions, the majority opinion cites four cases for the
proposition that other circuits in fact share our
“Brecht-only” approach. Two of them are unpublished,
which says little when stacked next to the just-cited
published decisions of those same courts. Wharton v.
Vaughn, 722 F. App’x 268 (3d Cir. 2018); Hammonds
v. Comm’r, Ala. Dep’t of Corr., 712 F. App’x 841 (11th
Cir. 2017). And even on their own non-binding terms,
those cases do not stand for the extraordinary proposition that a federal habeas court may “go straight to
Brecht with full confidence that the AEDPA’s stringent standards will also be satisfied.” Ruelas, 580 F.3d
at 413. Both Wharton and Hammonds extensively

58a
discuss the familiar AEDPA standard; they do not
sweep it aside.
The same is true of the Seventh Circuit’s en banc
decision in Long. After confirming that the state
court’s harmless error decision was entitled to AEDPA
deference, the court went on to deny habeas relief on
the basis that there was no threshold constitutional
error in the state court proceeding, meaning the court
need not reach the question of harmlessness. 874 F.3d
at 547–48. The en banc Seventh Circuit majority thus
said nothing about Brecht consuming AEPDA. Nor, in
fact, did the dissenters. The dissenting opinion, which
believed a constitutional error had occurred, acknowledged three inquiries to assess whether that error was
harmless—including measuring the error against the
clearly established constitutional law at the time, the
traditional AEDPA standard. See id. at 556.
That leaves the Ninth Circuit’s decision in Hall v.
Haws, 861 F.3d 977 (9th Cir. 2017), the lone published
out-of-circuit decision granting habeas relief that the
majority opinion cites to support its AEDPA-free
framework. Yet even there, Judge Pregerson, writing
for a fractured court, begrudgingly performed an
AEDPA analysis, finding that the “California Court of
Appeal’s harmless error determination was objectively unreasonable.” Id. at 992. Nor, it bears adding,
does Hall suggest that the Ninth Circuit’s earlier, controlling decisions in Rademaker and Sifuentes were
wrongly decided or otherwise distinguishable.
Other than a misguided line of cases in this Court,
then, the courts of appeals have universally accepted
the notion that, before granting habeas relief, a federal court reviewing a state court’s harmlessness

59a
determination must reach two separate conclusions:
one, that the constitutional error had a substantial
and injurious effect on the verdict; and two, that the
state court’s harmlessness analysis constituted an unreasonable application of clearly established federal
law. The majority opinion does only the first.
*****
By my tally, today’s opinion flouts a long-standing
federal statute, misapprehends Supreme Court precedent, and pays no respect to the independent judgment of our sister state courts—all in reversing a decision in which the magistrate judge and district court
properly applied the correct statutory and precedential requirements. Davenport v. MacLaren, No. 1:14cv-1012, 2016 WL 11262506, at *6 (W.D. Mich. Nov. 7,
2016). In so doing, the majority opinion divides our
Circuit on the resolution of harmless error issues in
the habeas context. Stewart, 867 F.3d at 636–37. And
it sets us apart from every other circuit to have addressed the issue. This point bears repeating: No circuit, save for this one, has granted habeas relief without first finding that the underlying state court decision ran afoul of both Brecht and AEDPA. For these
reasons, I cannot join the majority opinion. And given
the recurring nature of this important question, it is
my hope that some court, either our en banc court or
beyond, will clarify the standard we apply in this frequent setting.
II. Application Of The AEDPA And Brecht
Standards Forecloses Relief To Davenport.
Were we to apply AEDPA deference, as Ayala requires, we could not conclude that the Michigan

60a
courts’ determination regarding harmless error constituted an objectively unreasonable application of
clearly established federal law. Likewise, even accepting the majority opinion’s conclusion that we may ignore AEDPA, the majority opinion fundamentally
misapplies the Brecht standard in granting habeas relief to Davenport.
A. In Faulting The Michigan Supreme Court On
Collateral Review, The Majority Opinion Impermissibly Extends Both Deck and Holbrook.
Because there is no Supreme Court precedent that
shows “beyond doubt” that an error occurred in Davenport’s trial or that any such error was not harmless,
Yarborough, 541 U.S. at 666, Davenport’s claim fails
to clear AEDPA’s high bar. Stewart, 867 F.3d at 639.
To assess whether the Michigan courts unreasonably applied clearly established federal law in affirming Davenport’s conviction, the most analogous benchmarks are Deck and Holbrook. In Deck, the Supreme
Court held that the shackling of a criminal defendant
at trial, in certain circumstances, is an error of constitutional magnitude subject to Chapman review. 544
U.S. at 635. But Deck is unlike today’s case in ways
that make the Michigan courts’ decision to deny Davenport relief entirely reasonable. Consider the extreme measures employed against Deck during his
state trial. His hands and feet were shackled throughout trial. The shackles were visible to the entire jury.
And Deck remained shackled even during the punishment phase—where imposition of the death penalty
was quite likely. The state trial court, moreover, did
not hold any kind of evidentiary hearing to probe what

61a
effect (if any) the shackles might have had on the verdict.
Compare that dramatic circumstance to the facts
of Davenport’s trial. A significant concern driving the
result in Deck was Deck’s inability to communicate
with his counsel. Id. at 631. Not so for Davenport. His
right hand remained unshackled throughout trial,
meaning he could write notes to his counsel without
impediment. Mendoza, 544 F.3d at 654–55 (citing
Deck, 544 U.S. at 630). Another concern was Deck’s
inability to participate in his defense by testifying on
account of the shackles. Id. Davenport testified in his
own defense completely unshackled. Also unlike in
Deck, there was a privacy curtain around counsel table to make Davenport’s shackles less apparent, undercutting Deck’s core requirement for granting relief,
namely, that the shackles be visible to the jury. Id.
These same factual distinctions led us to deny the petitioner’s shackling claim in Mendoza because “it
[was] not obvious that Deck should be extended to the
particular facts present.” Id. at 655. So too here.
And in another respect, Davenport’s claim is an
even weaker candidate for habeas relief than was
Mendoza’s unsuccessful claim. Back to Deck. There,
the state trial court failed to probe any possible influence Deck’s shackling had on the jury. Not so here.
Following the Michigan Supreme Court’s acknowledgement that Davenport’s partial shackling may
have been an error under Deck, the trial court held an
evidentiary hearing to elicit testimony from the jurors
to assess whether shackling had any impact on the
trial’s outcome. The court inquired whether the jurors
had seen the shackles and, if so, what effect, if any,

62a
the shackles had on each juror’s deliberation. Less
than half the jurors saw the shackles. And each juror
affirmatively testified that the partial shackling had
no effect on her verdict.
So the majority opinion buries the lede. In summarizing the juror interviews that took place during
the evidentiary hearing, the majority opinion starts
with the least-revealing aspects. For instance, the majority notes that one juror asked another whether she
was nervous sitting next to Davenport while he testified, an exchange that apparently reflected juror bias.
But any apprehension over proximity to Davenport on
the juror’s part could simply reflect the fact that Davenport, at the time, was a six-foot-five-inch, 300pound man accused of violently strangling a young
woman. Only after highlighting this and other largely
inconsequential items does the majority opinion finally mention the conclusive bottom line: No juror’s
verdict was influenced by the partial shackling.
But that bottom-line account cannot be trusted,
we are told, in view of the Supreme Court’s decision in
Holbrook. Holbrook, however, is a poor vehicle for undermining this juror testimony. After all, Holbrook
did not deal with shackling. Nor did it address juror
reflections following trial. Rather, it addressed statements made by prospective jurors during voir dire. It
may be the case that a potential juror’s pre-trial statement that she will not be prejudiced by visible security
measures while later sitting as a juror during trial
proceedings is inherently speculative. 475 U.S. at 570
(“[W]hen jurors are questioned at the very beginning
of proceedings[,] at that point, they can only speculate
on how they will feel after being exposed to a practice

63a
daily over the course of a long trial.”). But that hardly
describes today’s case. Davenport’s jurors were questioned only after sitting through a lengthy trial where
they heard graphic evidence of a brutal killing. When
the jurors were later asked about the effect of the partial shackling on their deliberations, they were relaying their actual experiences, not speculating about future events, a distinction aptly recognized by the
Michigan Court of Appeals. Davenport, 2012 WL
6217134, at *2 (“[I]t was proper for the jurors to testify
regarding how viewing the shackles affected their deliberations.”).
Lacking a factual or legal basis to establish an unreasonable application of federal law by the Michigan
courts, the majority opinion turns to legal commentators and public researchers. These sources, says the
majority opinion, also undermine Davenport’s conviction. Why? Because “social-science research has
demonstrated the near-universal existence of implicit
and unconscious bias.” That may be (although the debate can be left for another day). Suffice it to say that
the majority opinion, if it proves anything, proves too
much. After all, if every person to sit on a jury implicitly is impermissibly biased, seemingly no verdict
could ever stand, given the risk that some purported
bias may have tainted the outcome, even in the face of
overwhelming evidence. For today’s purposes, what
guides our review is “clearly established Federal law,
as determined by the Supreme Court of the United
States,” not abstract sociology. 28 U.S.C. § 2254(d)(1).
Plainly then, Deck and Holbrook’s application to
this case was far from “beyond doubt.” Yarborough,
541 U.S. at 666. To be sure, on direct review, a court

64a
might reasonably extend Deck and Holbrook to cover
the facts of this case. But we cannot fault the Michigan courts today, on collateral review, for failing to
anticipate the majority opinion’s extension of Deck
and Holbrook, when the Supreme Court has not done
the same.
B. Even If Deck And Holbrook Govern Davenport’s
Claim, Davenport Was Not Actually Prejudiced By His
Partial Shackling At Trial.
1. Advancing “straight to Brecht” as the majority
opinion does, it short-changes even that test. The majority opinion misconstrues the Supreme Court’s holding in Deck and our own precedents to invoke what it
calls a “presumption of prejudice.” It then employs
that “presumption” to shift the usual burden on collateral review, requiring a showing of “sufficiently strong
evidence of guilt” to sustain Davenport’s first-degree
murder conviction. That unusual standard surely cannot be gleaned from Deck. Deck, keep in mind, came to
the Supreme Court on direct (not collateral) review,
meaning that any language there suggesting that
prejudice is presumed in a shackling case can be
chalked up to Deck’s unique procedural posture. Because of that unique posture, Deck’s invocation of the
Chapman standard to measure prejudice is the inverse of what we apply here.
Nor does a “presumption of prejudice” standard
fairly find its footing in our decision in Ruimveld v.
Birkett, 404 F.3d 1006, 1017–18 (6th Cir. 2005). In
Ruimveld, a pre-Deck case involving shackling, we determined that shackling claims generally are subject
to harmless error review (as Deck would later require). Id. at 1013. And we acknowledged the

65a
common-sense notion that strong evidence of guilt
may readily show that the defendant’s shackling was
harmless. Id. at 1016. But we did not hold that strong
evidence was necessary to do so. In any event, to the
extent Ruimveld is inconsistent with Deck’s subsequent holding that shackling errors are subject to ordinary Chapman analysis (and therefore Brecht analysis on collateral review), Deck carries the day.
Not only is the majority opinion’s standard at odds
with precedent, it is similarly at odds with the traditional understanding of habeas review. By employing
a “presumption of prejudice” standard, the majority
opinion engages in what essentially amounts to direct
review of the Michigan Supreme Court’s decision—
and a more exacting form of direct review at that—
paradoxically making habeas relief easier to obtain
than relief on direct review. Among other peculiarities, the majority’s approach sets shackling apart from
other errors subject to Chapman analysis. But the Supreme Court has not afforded shackling violations
unique treatment. As with other constitutional errors,
the state, on direct review, must prove “beyond a reasonable doubt that the [shackling] error complained of
did not contribute to the verdict obtained.” Deck, 544
U.S. at 635 (alterations and citations omitted). And
when a state court concludes that the government has
done so, we apply the ordinary Brecht analysis on collateral review. See 507 U.S. at 623.
Following Brecht, to hold on collateral review that
a criminal defendant was prejudiced by a constitutional error, we must have “grave doubt about
whether a trial error of federal law had ‘substantial
and injurious effect or influence in determining the

66a
jury’s verdict.’” Ayala, 135 S. Ct. at 2198 (quoting
O’Neal, 513 U.S. at 436). This standard, the majority
opinion notes, was satisfied in Ruimveld, “a close case
based on purely circumstantial evidence.” 404 F.3d at
1017–18. Davenport’s case was not close. Ample evidence supported his conviction for first-degree murder. Davenport undisputedly strangled White until
she died. To do so, a medical expert explained to the
jury, Davenport had to continue to apply pressure to
White’s airway for more than four minutes after she
lost consciousness.
In Michigan, Davenport’s conduct constitutes premeditated murder. See People v. Johnson, 597 N.W.2d
73, 78–80 (Mich. 1999). That is the inescapable conclusion from Johnson. There, the Michigan Supreme
Court affirmed a first-degree murder conviction involving strangulation. In addition to the strangulation
evidence implicating Johnson, the record also revealed that Johnson knew the victim, had defensive
wounds, and moved the victim’s body after the killing.
Collectively, this evidence satisfied the elements of
first-degree murder. Id. at 79–80.
Compared to the record in Johnson, the government had evidence to spare in Davenport’s case. Davenport, the record reveals, had an unfortunate fondness for strangulation. In addition to strangling
White, Davenport had also strangled another woman
less than a week earlier, conduct consistent with what
he had told others: that he would choke people if
things ever got out of hand. With respect to whether
Davenport had time to take a “second look” before
murdering White, Davenport (like Johnson) had defensive wounds. If all of that was not enough to prove

67a
premeditation, the government also established why
Davenport strangled White, and why he had little remorse for doing so. The two had a pre-existing relationship, Davenport hid White’s body after killing her,
and he stole property from her apartment in the days
after the murder. And what did Davenport have to say
when confronted with this evidence while testifying at
trial? “[I]t’s not gonna help me any to tell the truth.”
Measured against Johnson, the “substantial evidence of [Davenport’s] guilt” left the Michigan courts
with the firm conclusion that the government established that any error in Davenport’s proceeding was
harmless. Davenport, 832 N.W.2d at 390 (“Given the
substantial evidence of guilt presented at trial, we
cannot conclude that there was an unacceptable risk
of impermissible factors coming into play.”); Davenport, 2012 WL 6217134, at *2 (“All of the evidence indicated that the shackling did not affect the verdict in
any way.”). That should be all the more true in today’s
habeas setting. After all, Ayala requires Davenport to
satisfy an even higher standard on collateral review:
that we have “grave doubt” that an error substantially
and injuriously influenced the verdict. 135 S. Ct. at
2197–98.
The majority opinion hardly mentions Johnson.
Instead, it emphasizes general propositions of Michigan law, oddly elevating those generalities over the
specific holding in Johnson. True, as a general proposition in Michigan, evidence that a murder was committed by manual strangulation, standing alone, is
not enough to show premeditation. People v. Furman,
404 N.W.2d 246, 249–50 (Mich. App. 1987) (internal
citation omitted). But death by strangulation helps

68a
support a prima facie case of premeditated murder.
Id. And that prima facie case, in turn, can be supplemented by other evidence to show premeditation beyond a reasonable doubt, as was the case in Johnson.
597 N.W.2d at 78–80. Here, the supplemental evidence showing premeditation was plentiful. Indeed,
Johnson was the harder case.
2. Which brings me to the evidence regarding Davenport’s partial shackling, the lone potential ground
for distinguishing Johnson. The majority opinion posits that the partial shackling “branded Davenport as
having a violent nature,” so much so that his “presumption of innocence [was] replaced by a presumption of dangerousness.” All of that, however, belies the
Supreme Court’s clear command that shackling errors
are subject to ordinary Chapman (and therefore
Brecht) analysis. Deck, 544 U.S. at 635.
In effect, the majority opinion assumes the jurors
in Davenport’s case were influenced in their verdict by
the partial shackling. But why make any assumptions
about what was going through each juror’s mind during deliberations? We have their testimony. And it is
conclusive. Every single juror testified that the shackling had no effect on the verdict.
To be sure, some jurors made statements to the
effect that Davenport was dangerous. Of course, those
statements were made after the jurors had heard
graphic evidence regarding Davenport’s strangulation
of White—with his bare hands—along with other incriminating evidence. And, of course, after the jurors
had deemed Davenport guilty of first-degree murder.
That leaves little reason to believe the jurors’ judgment of Davenport was due to his partial shackling

69a
(visible to less than half the jurors) rather than his
gruesome killing of White.
The record is conclusive. The jury was presented
with extensive evidence that Davenport strangled a
woman to death, and that the crime was premeditated. Each juror testified that the partial shackling
had no effect on her verdict. That evidence was
enough to satisfy a unanimous Michigan Court of Appeals, and enough for a unanimous Michigan Supreme Court. It was enough for the district court and
the magistrate judge. And it is enough for me. I respectfully dissent.

70a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-2267
FILED
Jun 30, 2020
DEBORAH S. HUNT, Clerk
ERVINE LEE DAVENPORT,
Petitioner - Appellant,
v.
DUNCAN MACLAREN, Warden,
Respondent - Appellee.
Before: COLE, Chief Judge; STRANCH and
READLER, Circuit Judges.
JUDGMENT
On Appeal from the United States District Court for
the Western District of Michigan at Grand Rapids.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED that the judgment of the district court is REVERSED, Ervine Davenport is GRANTED a condition
writ of habeas corpus, and the case is REMANDED for
further proceedings consistent with the opinion of this
court.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt
Deborah S. Hunt, Clerk

71a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
ERVINE LEE DAVENPORT,
Petitioner,
v.

Case No. 1:14-cv-1012
HON. JANET T. NEFF

DUNCAN MACLAREN,
Respondent.

/

OPINION AND ORDER
This is a habeas corpus petition filed pursuant to
28 U.S.C. § 2254. The matter was referred to the Magistrate Judge, who issued a Report and Recommendation recommending that this Court deny the petition
(R&R, ECF No. 9). The matter is presently before the
Court on Petitioner’s objections to the Report and Recommendation (Pet’r Obj., ECF No. 10). In accordance
with 28 U.S.C. § 636(b)(1) and FED. R. CIV. P.
72(b)(3), the Court has performed de novo consideration of those portions of the Report and Recommendation to which objections have been made. The Court
denies the objections and issues this Opinion and Order. The Court will also issue a Judgment in this §
2254 proceeding. See Gillis v. United States, 729 F.3d
641, 643 (6th Cir. 2013) (requiring a separate judgment in habeas proceedings).
Petitioner sets forth two main objections to the
Report and Recommendation. First, Petitioner argues

72a
that the Magistrate Judge erred in concluding that
Petitioner is not entitled to habeas relief “because
there was ‘overwhelming evidence of Petitioner’s
guilt’’ (Pet’r Obj., ECF No. 10 at PageID.2887; R&R,
ECF No. 9 at PageID.2881). Petitioner acknowledges
that the Magistrate Judge correctly recognized that
“the burden is on the prosecution to establish beyond
a reasonable doubt that shackling Petitioner ‘did not
contribute to’ the jury’s guilty verdict’ (Obj., ECF No.
10 at PageID.2887-2888, quoting R&R, ECF No. 9 at
PageID.2881). Petitioner contends, however, that the
Magistrate Judge “turned this burden on its head by
concluding that ‘it was completely reasonable for the
jury to reject Petitioner’s claim of self-defense and to
instead find Petitioner committed first degree murder’’ (Obj., ECF No. 10 at PageID.2888). Petitioner additionally contends that the Magistrate Judge “invaded the province of the jury’ by making “her own
credibility determinations with respect to the competing evidence in the case’ (id.). Further, the Magistrate
Judge failed to mention and address how the shackling of Petitioner communicated to the jury the trial
judge’s belief that Petitioner was violent and dangerous, which destroyed the presumption of innocence,
and the prosecution’s ability to meet its burden (id.).
First, to the extent that Petitioner directs this
Court to his “attached Memorandum’ for his arguments, such incorporation by reference does not constitute proper objection to a Report and Recommendation. Petitioner must “specifically identify the portions
of the proposed findings, recommendations or report
to which objections are made and the basis for such
objections.’ See W.D. Mich. LCivR 72.3(b); see also 28
U.S.C. § 636(b)(1). It is not this Court’s responsibility

73a
to sift through Petitioner’s forty-page Memorandum
to ferret out an argument.
In any event, Petitioner’s objection fails because
the Magistrate Judge identified and applied the
proper standard for analyzing the issue of Petitioner’s
shackling on habeas review. The Magistrate Judge
noted that the trial court found that the prosecution
satisfied its burden, a decision that was affirmed on
appeal. The Magistrate Judge concluded that “given
the overwhelming evidence of Petitioner’s guilt, as
well as the lack of evidence that the jurors were influenced by Petitioner being in shackles, Petitioner is not
entitled to habeas relief’ (R&R, ECF No. 9 at
PageID.2881).
Contrary to Petitioner’s contention, the Magistrate Judge identified and applied the proper legal
standards, including those for granting habeas relief
(id. at PageID.2876-2879), e.g., “whether a state court
unreasonably applies clearly established federal law’
or “whether the decision of the state court was based
on an unreasonable determination of the facts in light
of the evidence presented’ (id. at PageID.2878, citing
28 U.S.C. § 2254(d)(1) and (2)). The Magistrate Judge
observed that “where a court . . . orders the defendant
to wear shackles that will be seen by the jury, . . . [t]he
State must prove ‘beyond a reasonable doubt that the
[shackling] . . . did not contribute to the verdict obtained.’’ (id. at PageID.2880, quoting Deck v Missouri,
544 U.S. 622, 635 (2005). Moreover, the Magistrate
Judge reiterated this standard when she stated that
“the burden shifted to the prosecution to establish, beyond a reasonable doubt, that shackling Petitioner did
not contribute to the jury’s guilty verdict’ (id. at

74a
PageID.2881). The Magistrate Judge then analyzed
the trial testimony (id. at PageID.2881-84) as well as
the jury testimony from the post-conviction hearing
(id. at PageID.2885), under the proper standards, and
properly concluded that Petitioner was not entitled to
habeas relief.
After considering the evidence at trial, the Magistrate Judge stated that “it was completely reasonable
for the jury to reject Petitioner’s claim of self-defense
and to instead find that Petitioner committed first degree murder’ (id. at PageID.2884). Petitioner contends
that the Magistrate Judge’s analysis somehow demonstrates that a reasonableness standard was used
when determining whether Petitioner’s shackling contributed to the jury’s guilty verdict. The Court disagrees. In using the word “reasonable’ in her conclusions, the Magistrate Judge was merely referring to a
proper basis for the jury’s rejection of Petitioner’s selfdefense claim and its return of a guilty verdict based
on the evidence. Nothing in the Magistrate Judge’s
statement undermines the application of the legal
standards set forth in the Report and Recommendation.
Petitioner fails to demonstrate any factual or legal
error in the Magistrate Judge’s analysis or conclusion.
Petitioner’s first objection is denied.
In Petitioner’s second objection, he again argues
that the Magistrate Judge failed to apply the proper
standard when determining that “Petitioner is not entitled to habeas relief due to the lack of evidence that
the jurors were influenced by Petitioner being in
shackles’’ (Pet’r Obj., ECF No. 10 at PageID.2888,
quoting R&R, ECF No. 9 at PageID.2881). Petitioner

75a
states that the “lack of evidence’ standard is perplexing since “[t]he burden is on the prosecution to establish beyond a reasonable doubt that shackling Petitioner ‘did not contribute’ to the jury’s guilty verdict’
(id. at PageID.2889). Further, the Magistrate Judge
cited no authority for relying on the jurors’ self-evaluation of the prejudicial effect of the shackles’ (id.).
Petitioner’s second objection likewise fails because the Magistrate Judge identified and applied the
proper standard for analyzing Petitioner’s shackling,
i.e., whether “the prosecution demonstrated beyond a
reasonable doubt that the fact that Petitioner was
shackled during his trial did not contribute to the
jury’s guilty verdict’ (id. at PageID.2885). The Magistrate Judge analyzed the jury testimony from the
state court post-conviction hearing, in light of the evidence, and under the appropriate standards for habeas relief (id.). The Magistrate Judge’s reference to
the jurors’ testimony, or purported “self-evaluation’ of
the prejudicial effect, does not undermine the Magistrate Judge’s analysis or ultimate conclusion.
Having determined Petitioner’s objections lack
merit, the Court must further determine pursuant to
28 U.S.C. § 2253(c) whether to grant a certificate of
appealability as to the issues raised. See RULES
GOVERNING § 2254 CASES, Rule 11 (requiring the
district court to “issue or 4 5 deny a certificate of appealability when it enters a final order’). The Court
must review the issues individually. Slack v. McDaniel, 529 U.S. 473 (2000); Murphy v. Ohio, 263 F.3d 466,
466-67 (6th Cir. 2001).
“Where a district court has rejected the constitutional claims on the merits, the showing required to

76a
satisfy § 2253(c) is straightforward: The petitioner
must demonstrate that reasonable jurists would find
the district court’s assessment of the constitutional
claims debatable or wrong.’ Slack, 529 U.S. at 484.
Upon review, this Court finds that reasonable jurists
would not find the Court’s assessment of Petitioner’s
claims debatable or wrong. A certificate of appealability will therefore be denied.
Accordingly:
IT IS HEREBY ORDERED that the Objections
(ECF No. 10) are DENIED and the Report and Recommendation of the Magistrate Judge (ECF No. 9) is
APPROVED and ADOPTED as the Opinion of the
Court.
IT IS FURTHER ORDERED that the petition
for habeas corpus relief (ECF No. 1) is DENIED for
the reasons stated in the Report and Recommendation.
IT IS FURTHER ORDERED that a certificate
of appealability pursuant to 28 U.S.C. § 2253(c) is DENIED as to each issue asserted.
Dated: September 26, 2017

/s/ Janet T. Neff
JANET T. NEFF
United States
District Judge

77a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
ERVINE LEE DAVENPORT,
Petitioner,
v.

Case No. 1:14-cv-1012
HON. JANET T. NEFF

DUNCAN MACLAREN,
Respondent.

/

JUDGMENT
In accordance with the Opinion and Order entered
this date:
IT IS HEREBY ORDERED that Judgment is
entered in favor of Respondent Duncan Maclaren and
against Petitioner in this § 2254 proceeding.
Dated: September 25, 2017

/s/ Janet T. Neff
JANET T. NEFF
United States
District Judge

78a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
ERVINE DAVENPORT #179762,
Petitioner,
Hon. Janet T. Neff
v.
Case No. 1:14-CV-1012
DUNCAN MACLAREN,
Respondent.
____________________________________/
REPORT AND RECOMMENDATION
This matter is before the Court on Davenport’s petition for writ of habeas corpus. In accordance with 28
U.S.C. § 636(b) authorizing United States Magistrate
Judges to submit proposed findings of fact and recommendations for disposition of prisoner petitions, the
undersigned recommends that Davenport’s petition
be denied.
BACKGROUND
As a result of events occurring on or about January 13, 2007, Petitioner was charged with homicide,
open murder. (ECF No. 8-7 at PageID.583). Following
a jury trial, Petitioner was convicted of first degree
murder. (ECF No. 8-20 at PageID.2030). Petitioner
was sentenced to serve life in prison without possibility of parole. (ECF No. 8-21 at PageID.2047). Petitioner appealed his conviction to the Michigan Court
of Appeals asserting the following claims:

79a
I.

Defendant was denied his state and federal
constitutional right to due process where
his left hand was shackled to his waist for
most of the trial; defense counsel was ineffective for failing to lodge a clear objection
to the court’s policy of shackling. 1

II.

Defendant’s conviction must be vacated
and the charge dismissed with prejudice
based on the violation of his constitutional
right to speedy trial.

III.

Defendant’s conviction for first-degree murder must be reversed where there was insufficient evidence of premeditation and deliberation.

The Michigan Court of Appeals affirmed Petitioner’s conviction. People v. Davenport, 2010 WL
3062279 (Mich. Ct. App., Aug. 5, 2010). The Michigan
Supreme Court, however, reversed the determination
that Petitioner was not entitled to an evidentiary
hearing. People v. Davenport, 794 N.W.2d 616 (Mich.
2011). Specifically, the court held that Petitioner
“should have been permitted to develop the record on
the issue of whether his shackling during trial prejudiced his defense.” Id. The court further held that “if
it is determined that the jury saw the defendant’s
shackles, the circuit court shall determine whether
the prosecution can demonstrate beyond a reasonable
doubt that the shackling error did not contribute to
the verdict against the defendant.” Id.
1

Petitioner also separately requested that the matter be remanded for an evidentiary hearing on the shackling issue.

80a
Following an evidentiary hearing in which all
twelve jurors testified, the trial court concluded that
“despite the precautions taken, many of the jurors
were able to observe Defendant’s shackles/restraints
during the trial.” (ECF No. 8-27 at PageID.2631). The
court further determined, however, that the prosecution had “demonstrated beyond a reasonable doubt
that the fact that Defendant was shackled/restrained
did not contribute to the jury’s guilty verdict.” (ECF
No. 8-27 at PageID.2631). Petitioner appealed the
matter to the Michigan Court of Appeals asserting the
following claim:
I.

Defendant was denied his state and federal
constitutional right to due process where he
was shackled during trial, where the shackles were visible and seen by five jurors and
the subject of comments heard by two additional jurors, and where the prosecution
cannot demonstrate beyond a reasonable
doubt that the shackling error did not contribute to the verdict.

The Michigan Court of Appeals affirmed Petitioner’s conviction on the ground that “[t]he trial court
did not err in finding that the prosecution proved beyond a reasonable doubt that the shackling error did
not affect the verdict.” People v. Davenport, 2012 WL
6217134 (Mi. Ct. App., Dec. 13, 2012). Petitioner unsuccessfully moved in the Michigan Supreme Court
for leave to appeal this determination. People v. Davenport, 632 N.W.2d 389 (Mich. 2013). On September
25, 2014, Petitioner initiated the present action, asserting the claim identified immediately above.

81a
STANDARD OF REVIEW
Davenport’s petition is subject to the provisions of
the Antiterrorism and Effective Death Penalty Act
(AEDPA), as it amended 28 U.S.C. § 2254. The
AEDPA amended the substantive standards for
granting habeas relief under the following provisions:
(d)An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim —
(1)

resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of
the United States, or

(2)

resulted in a decision that was based on
an unreasonable determination of the
facts in light of the evidence presented in
the State court proceeding.

28 U.S.C. § 2254(d).
The AEDPA has “modified” the role of the federal
courts in habeas proceedings to “prevent federal habeas ‘retrials’ and to ensure that state-court convictions are given effect to the extent possible under law.”
Bell v. Cone, 535 U.S. 685, 693 (2002).
Pursuant to § 2254(d)(1), a decision is “contrary
to” clearly established federal law when “the state

82a
court arrives at a conclusion opposite to that reached
by [the Supreme] Court on a question of law” or “if the
state court confronts facts that are materially indistinguishable from a relevant Supreme Court precedent and arrives at an opposite result.” Ayers v. Hudson, 623 F.3d 301, 307 (6th Cir. 2010) (quoting Williams v. Taylor, 529 U.S. 362, 405 (2000)).
Prior to Williams, the Sixth Circuit interpreted
the “unreasonable application” clause of § 2254(d)(1)
as precluding habeas relief unless the state court’s decision was “so clearly incorrect that it would not be
debatable among reasonable jurists.” Gordon v. Kelly,
2000 WL 145144 at *4 (6th Cir., February 1, 2000); see
also, Blanton v. Elo, 186 F.3d 712, 714-15 (6th Cir.
1999). The Williams Court rejected this standard, indicating that it improperly transformed the “unreasonable application” examination into a subjective inquiry turning on whether “at least one of the Nation’s
jurists has applied the relevant federal law in the
same manner” as did the state court. Williams, 529
U.S. at 409.
In articulating the proper standard, the Court
held that a writ may not issue simply because the reviewing court “concludes in its independent judgment
that the relevant state-court decision applied clearly
established federal law erroneously or incorrectly.”
Williams, 529 U.S. at 411. Rather, the Court must
also find the state court’s application thereof to be objectively unreasonable. Bell, 535 U.S. at 694; Williams, 529 U.S. at 409-12. Accordingly, a state court
unreasonably applies clearly established federal law
if it “identifies the correct governing legal principle
from the Supreme Court’s decisions but unreasonably

83a
applies that principle to the facts of the prisoner’s
case” or if it “either unreasonably extends or unreasonably refuses to extend a legal principle from the
Supreme Court precedent to a new context.” Ayers,
623 F.3d at 307. Furthermore, review under §
2254(d)(1) “is limited to the record that was before the
state court that adjudicated the claim on the merits.”
Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
Pursuant to 28 U.S.C. § 2254(d)(2), when reviewing whether the decision of the state court was based
on an unreasonable determination of the facts in light
of the evidence presented, the “factual determination
by [the] state courts are presumed correct absent clear
and convincing evidence to the contrary.” Ayers, 623
F.3d at 308. Accordingly, a decision “adjudicated on
the merits in a state court and based on a factual determination will not be overturned on factual grounds
unless objectively unreasonable in light of the evidence presented in the state-court proceeding.” While
this standard is “demanding” it is “not insatiable.” Id.
For a writ to issue pursuant to § 2254(d)(1), the
Court must find a violation of clearly established federal law “as set forth by the Supreme Court at the
time the state court rendered its decision.” Stewart v.
Irwin, 503 F.3d 488, 493 (6th Cir. 2007). This definition of “clearly established federal law” includes “only
the holdings of the Supreme Court, rather than its
dicta.” Bailey v. Mitchell, 271 F.3d 652, 655 (6th Cir.
2001). Nevertheless, “the decisions of lower federal
courts may be instructive in assessing the reasonableness of a state court’s resolution of an issue.” Stewart,
503 F.3d at 493.

84a
As previously noted, § 2254(d) provides that habeas relief “shall not be granted with respect to any
claim that was adjudicated on the merits” unless the
petitioner can satisfy the requirements of either §
2254(d)(1) or § 2254(d)(2). This provision, however,
“does not require a state court to give reasons before
its decision can be deemed to have been ‘adjudicated
on the merits.’” Harrington v. Richter, 131 S.Ct. 770,
785 (2011). Instead, when a federal claim has been
presented to a state court and the state court has denied relief, “it may be presumed that the state court
adjudicated the claim on the merits.” Id. at 784-85.
Where such is the case, the Court must apply the deferential standard of review articulated above, rather
than some other less deferential standard. The presumption that the state court “adjudicated [a] claim
on the merits” may be overcome only “when there is
reason to think some other explanation for the state
court’s decision is more likely.” Id. If this presumption
is overcome, however, the Court reviews the matter de
novo. See Wiggins v. Smith, 539 U.S. 510, 533-35
(2003) (reviewing habeas issue de novo where state
courts had not reached the question); see also, Maples
v. Stegall, 340 F.3d 433, 437 (6th Cir. 2003) (recognizing that Wiggins established de novo standard of review for any claim that was not addressed by the state
courts).

ANALYSIS
In 1998, Carman Deck was tried by the State of
Missouri for murder and robbery. Deck v. Missouri,
544 U.S. 622, 624 (2005). During his trial, Deck was
restrained by leg braces that were apparently not

85a
visible to the jury. Id. Deck was convicted and sentenced to death. Id. at 625. On appeal, Deck’s conviction was affirmed, but his sentence set aside. A new
sentencing proceeding was subsequently conducted,
during which Deck “was shackled with leg irons,
handcuffs, and a belly chain.” Deck’s objections to
these restraints were rejected by the trial court. On
appeal, Deck argued that his shackling violated his
rights under both state and federal law. Id. Deck’s appeals were unsuccessful, after which time he sought
review by the United States Supreme Court. Id. at
625-26. The Court granted certiorari to “consider
whether shackling a convicted offender during the
penalty phase of a capital case violates the Federal
Constitution.” Id. at 624-26.
Before addressing the specific issue raised by
Deck’s appeal, the Court first considered “whether, as
a general matter, the Constitution permits a State to
use visible shackles routinely in the guilt phase of a
criminal trial.” Id. at 626. The Court concluded that
“the Fifth and Fourteenth Amendments prohibit the
use of physical restraints visible to the jury absent a
trial court determination, in the exercise of its discretion, that they are justified by a state interest specific
to a particular trial.” Id. at 626-29. The Court concluded:
Thus, where a court, without adequate justification, orders the defendant to wear shackles
that will be seen by the jury, the defendant
need not demonstrate actual prejudice to
make out a due process violation. The State
must prove ‘beyond a reasonable doubt that

86a
the [shackling] error complained of did not
contribute to the verdict obtained.’
Id. at 635.
Petitioner was shackled during his trial. Prior to
approving this action, the trial court failed to place on
the record any justification for such or provide any indication of the factors or considerations that were considered in support of this decision. Moreover, in its
post-remand Opinion and Order, the trial court again
offered no rationalization or justification for shackling
Petitioner during his trial. Several jurors later testified that they observed Petitioner’s shackles. Because
the trial court did not articulate “adequate justification” for its decision, Petitioner was not obligated to
establish that he suffered prejudice as a result of being shackled in a manner that the jury observed. Instead, the burden shifted to the prosecution to establish, beyond a reasonable doubt, that shackling Petitioner “did not contribute to” the jury’s guilty verdict. 2
The trial court found that the prosecution satisfied its
burden, a decision which was affirmed on appeal. As
discussed below, the Court concludes that given the
overwhelming evidence of Petitioner’s guilt, as well as
2

Respondent asserts that the trial court adequately justified
its decision to shackle Petitioner by making reference at the subsequent evidentiary hearing to an off-the-record conversation regarding threatening statements Petitioner allegedly made as
well as vague concerns about Petitioner’s “large size.” The Court
need not concern itself whether such observations are legally sufficient, as courts have rejected such after-the-fact justifications.
See, e.g., Larson v. Palmateer, 515 F.3d 1057, 1063 (9th Cir. 2008)
(“[a]lthough any of these reasons may have provided an adequate
basis for imposing security restraints, the Supreme Court in
Deck specifically rejected such post-hoc rationales”).

87a
the lack of evidence that the jurors were influenced by
Petitioner being in shackles, Petitioner is not entitled
to habeas relief.
A. Trial Testimony
Petitioner testified that at approximately 2:00
a.m. on January 13, 2007, he was driving when he encountered Annette White. (ECF No. 8-18 at Page
ID.1742-43). White got into the car and the pair went
to a nearby residence where they began using drugs.
(ECF No. 8-18 at Page ID.1743-46). According to Petitioner, White’s mood changed after she began using
drugs. (ECF No. 8-18 at Page ID.1747-48). Specifically, she began “running the house acting a fool, you
know, clowning.” (ECF No. 8-18 at Page ID.1748).
White later began arguing with the couple that owned
the residence at which point Petitioner and White departed. (ECF No. 8-18 at Page ID.1746- 50).
Petitioner began to drive White home, but when
White realized where Petitioner was going she requested that he instead drive her to a different location where she could obtain more drugs. (ECF No. 818 at Page ID.1756-58). When Petitioner refused,
White “tried to grab the wheel and turn the car.” (ECF
No. 8-18 at Page ID.1758). In response, Petitioner
“pushed her back from the wheel.” (ECF No. 8-18 at
Page ID.1758). White responded by brandishing a box
cutter which she swung at Petitioner cutting his upper arm. (ECF No. 8-18 at Page ID.1758-64). Petitioner immediately “grabbed” White and “pushed her
over towards the other side of the car.” (ECF No. 8-18
at Page ID.1764). According to Petitioner, he never
placed his hands around White’s neck, but instead
was simply “holding her” with his hand “right up

88a
under her chin.” (ECF No. 8-18 at Page ID.1764-65).
White responded by “kicking and trying to reach at”
Petitioner. (ECF No. 8-18 at Page ID.1765-66). White
quickly dropped the box cutter, but Petitioner continued to maintain “control” of her. (ECF No. 8-18 at
Page ID.1763-66). Petitioner eventually pulled off the
road at which point he noticed that White was no
longer breathing. (ECF No. 8-18 at Page ID.1767-68).
Petitioner contended that he acted in self-defense and
that had he not acted as he did, White “would have cut
[him] up.” (ECF No. 8-18 at Page ID.1806-07).
The testimony presented by the prosecution, however, belied Petitioner’s claim of self-defense. At the
time of White’s killing, Petitioner was six feet five
inches tall and weighed approximately 300 pounds.
(ECF No. 8-17 at Page ID.1580). Annette White, on
the other hand, was five feet two inches tall and
weighed 103 pounds. (ECF No. 8-14 at Page ID.111819). Moreover, on the night she was killed, Annette
White was wearing a splint because she had recently
fractured her left wrist. (ECF No. 8-14 at Page
ID.1147-50; ECF No. 8-15 at PageID.1242).
The doctor who performed the autopsy on Annette
White testified that White died from manual strangulation. (ECF No. 8-14 at Page ID.1120-21). In response
to Petitioner’s testimony that he did not choke White
and was instead only “holding her” away, the doctor
reiterated that there existed no question in his mind
that White was killed by manual strangulation. (ECF
No. 8-19 at Page ID.1915-16). The doctor further testified that it requires the application of “significant
force” for a significant length of time to kill someone
by manual strangulation. (ECF No. 8-14 at Page

89a
ID.1124). Specifically, the doctor testified that it
would take approximately 30 seconds to render the
person unconscious and at least 4-5 minutes to kill
them. (ECF No. 8-14 at Page ID.1124-25).
When police searched the vehicle Petitioner was
driving on the night he killed White, a box cutter was
discovered. (ECF No. 8-14 at Page ID.1167, 1184-93;
ECF No. 8-16 at PageID.1466-75). An examination of
the box cutter revealed no evidence of blood. (ECF No.
8-14 at Page ID.1194). Petitioner did not contact the
police or other authority after killing Annette White,
but instead simply dumped her body face down in the
woods. (ECF No. 8-14 at Page ID.1092-93, 1097-99,
1102-04; ECF No. 8-18 at PageID.1842-43). An investigation of the area where White’s body was dumped
revealed the presence of shoeprints. (ECF No. 8-14 at
PageID.1152-60, 1168- 69). Petitioner subsequently
attempted to discard the shoes he was wearing on the
night he killed Annette White. (ECF No. 8-15 at
PageID.1392-1420, 1428-33). Police, however, recovered these shoes and an examination revealed that
Petitioner’s shoes were consistent with the shoeprints
discovered near Annette White’s body. (ECF No. 8-14
at PageID.1152-60).
An acquaintance of Petitioner testified that immediately after watching a news report regarding Annette White’s death, Petitioner stated that he “done
it.” (ECF No. 8-15 at PageID.1349- 55). Petitioner
stated that things with White “got out of hand” and he
“had to off her.” (ECF No. 8-15 at PageID.1357). Only
five days before he choked Annette White to death, Petitioner, without provocation, attacked another
woman and choked her until she was unconscious.

90a
(ECF No. 8-15 at PageID.1434-48). When Petitioner
was interviewed by the police, he initially blamed
White’s killing on somebody else and stated that he
had only been involved with dumping her body in the
woods. (ECF No. 8-16 at PageID.1524-25). Petitioner
only later asserted that he acted in selfdefense. (ECF
No. 8-16 at PageID.1531).
Given the severe disparity in size and weight between Petitioner and Annette White, as well as the
fact that White had a fractured left wrist at the time,
it was not unreasonable for the jury to find unpersuasive Petitioner’s testimony that self-defense necessitated that he manually strangle White with “significant force” for several minutes until she was dead.
That Petitioner did not contact the police following
White’s death and instead simply dumped her body in
the woods would further undercut in the mind of any
reasonable juror Petitioner’s claim of self-defense. Petitioner’s subsequent attempt to discard evidence
placing him at the scene where White’s body was
dumped further undermines Petitioner’s claim of selfdefense. Likewise, evidence that Petitioner had only a
few days before killing White choked a different
woman until she was unconscious undercut Petitioner’s claim of self-defense. Finally, evidence that
Petitioner stated to an acquaintance that he “had to
off” White following an altercation of some kind and
later lied to the police about the events in question
completely diminish Petitioner’s claim that he reasonably acted in self-defense. In sum, it was completely
reasonable for the jury to reject Petitioner’s claim of
self-defense and to instead find that Petitioner committed first degree murder.

91a
B. Juror Testimony
All the jurors who decided Petitioner’s fate testified at the post-conviction hearing ordered by the
Michigan Supreme Court. (ECF No. 8-24; ECF No. 825). Several jurors noticed that Petitioner was shackled during the trial. However, none of these jurors
placed any significance on this fact and simply considered it routine procedure. The fact that Plaintiff was
shackled was not discussed during jury deliberations
and the jurors testified that their votes were based
upon the evidence presented at trial. In sum, there
was no evidence that the fact that Petitioner was
shackled during his trial had any impact or influence
on the jury’s deliberations or decision.
As noted above, the state courts determined that
the prosecution had demonstrated beyond a reasonable doubt that the fact that Petitioner was shackled
during his trial did not contribute to the jury’s guilty
verdict. Accordingly, Petitioner’s claim of constitutional violation was rejected. In light of the authority
and evidence identified above, the Court concludes
that this determination is neither contrary to, nor involves an unreasonable application of, clearly established federal law. Furthermore, this decision was not
based on an unreasonable determination of the facts
in light of the evidence presented. Accordingly, this
claim raises no issue upon which habeas relief may be
granted.
CONCLUSION
For the reasons articulated herein, the undersigned concludes that Petitioner is not being confined
in violation of the laws, Constitution, or treaties of the

92a
United States. Accordingly, the undersigned recommends that Davenport’s petition for writ of habeas
corpus be denied. The undersigned further recommends that a certificate of appealability be denied. See
Slack v. McDaniel, 529 U.S. 473 (2000).
OBJECTIONS to this Report and Recommendation must be filed with the Clerk of Court within 14
days of the date of service of this notice. 28 U.S.C. §
636(b)(1)(C). Failure to file objections within the specified time waives the right to appeal the District
Court’s order. Thomas v. Arn, 474 U.S. 140 (1985);
United States v. Walters, 638 F.2d 947 (6th Cir. 1981).
Respectfully submitted,
Date: November 7, 2016 /s/ Ellen S. Carmody
ELLEN S. CARMODY
United States
Magistrate Judge

93a
Order
July 3, 2013
146652

Michigan Supreme Court
Lansing, Michigan
Robert P. Young, Jr.,
Chief Justice
Michael F. Cavanagh
Stephen J. Markman
Mary Beth Kelly
Brian K. Zahra
Bridget M. McCormack
David F. Viviano,
Justices

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

SC: 146652
COA: 306868
Kalamazoo CC: 2007-000165-FC

ERVINE LEE DAVENPORT,
Defendant-Appellant.
_________________________________________/
On order of the Court, the application for leave to
appeal the December 13, 2012 judgment of the Court
of Appeals is considered, and it is DENIED, because
we are not persuaded that the question presented
should be reviewed by this Court. While the Court of
Appeals erroneously failed to consider defendant’s
claim in light of the United States Supreme Court decision in Holbrook v Flynn, 475 US 560, 570; 106 S Ct

94a
1340; 89 L Ed 2d 525 (1986) (“the question must be
not whether jurors actually articulated a consciousness of some prejudicial effect, but rather whether ‘an
unacceptable risk is presented of impermissible factors coming into play’”), citing Estelle v Williams, 425
US 501, 505; 96 S Ct 1691; 48 L Ed 2d 126 (1976), the
error was harmless under the facts of this case. Given
the substantial evidence of guilt presented at trial, we
cannot conclude that there was an unacceptable risk
of impermissible factors coming into play.
I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the foregoing is a true and
complete copy of the order entered at the direction of
the Court.
July 3, 2013

Larry S. Royster
Clerk

95a
STATE OF MICHIGAN
COURT OF APPEALS
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
UNPUBLISHED
December 13, 2012
V
No. 306868
Kalamazoo Circuit Court
LC No. 2007-000165-FC
ERVINE LEE DAVENPORT,
Defendant-Appellant.
Before: TALBOT, P.J., and MARKEY and RIORDAN,
JJ.
PER CURIAM.
Defendant appeals as of right the trial court’s
opinion, after remand, holding that the prosecution
proved beyond a reasonable doubt that the shackling
error did not contribute to defendant’s conviction of
first-degree murder, MCL 750.316. We affirm.
I. FACTUAL BACKGROUND
The sole issue on appeal is the impact of defendant’s partial shackling at trial. While this Court previously held there were no errors requiring reversal
and no need to remand for an evidentiary hearing, in
lieu of granting leave to appeal, our Supreme Court
reversed this Court’s order denying defendant’s

96a
motion to remand for an evidentiary hearing. People v
Davenport, 488 Mich 1054; 794 NW2d 616 (2011). The
Court held that “defendant should have been permitted to develop the record on the issue of whether his
shackling during trial prejudiced his defense” and remanded the case to the trial court for proceedings consistent with its order. Id.
On remand, the trial court conducted two evidentiary hearings. Only five jurors testified that they observed defendant’s shackles during trial. While some
of the jurors remembered a comment being made
about the shackling from one of the jurors, all 12 jurors testified that defendant’s shackles were not discussed during deliberations and did not influence the
verdict. The trial court issued an opinion finding that
although many of the jurors were able to observe defendant’s shackles during trial, in light of the jurors’
testimony that it did not affect their verdict, the prosecution demonstrated beyond a reasonable doubt that
the shackling error did not contribute to defendant’s
conviction. Defendant now appeals.
II. SHACKLING
A. Standard of Review
“We review a trial court’s decision to shackle a defendant for an abuse of discretion under the totality of
the circumstances.” People v Payne, 285 Mich App
181, 186; 774 NW2d 714 (2009). However, “where a
court, without adequate justification, orders the defendant to wear shackles that will be seen by the jury,
the defendant need not demonstrate actual prejudice
to make out a due process violation.” Deck v Missouri,
544 US 622, 635; 125 S Ct 2007; 161 L Ed 2d 953

97a
(2005). Instead, the prosecution “must prove beyond a
reasonable doubt that the [shackling] error complained of did not contribute to the verdict obtained.”
Id. (internal quotations and citation omitted).
B. Analysis
Defendant argues that he was denied due process
when the trial court erroneously required him to be
shackled during trial and the prosecution failed to
prove beyond a reasonable doubt that the shackling
error did not contribute to his conviction. We disagree. 1
Although a defendant does not have an absolute
right to be unshackled at trial, “a defendant ‘may be
shackled only on a finding supported by record evidence that this is necessary to prevent escape, injury
to persons in the courtroom or to maintain order.’”
Payne, 285 Mich App at 186, quoting People v Dunn,
446 Mich 409, 425; 521 NW2d 255 (1994). If the trial
court improperly orders a defendant to be shackled,
the burden falls on the prosecution to prove beyond a
reasonable doubt that the error did not contribute to
the guilty verdict. Deck, 544 US at 635.
In the instant case, it is uncontroverted that defendant was shackled and that the trial court erred in
ordering his shackling. Five jurors also testified that
they recalled seeing defendant shackled at some point
during the proceedings. While some of the jurors
1

Defendant also makes a passing reference to the prejudicial effect of wearing his orange jail uniform. However, the issue on
remand was limited to the shackling, not defendant’s apparel.
See Davenport, 488 Mich at 1054.

98a
testified that they remembered a minor comment by
one of the jurors about the shackling, none could even
remember who made the comment. Further, every juror testified that defendant’s shackles were not discussed during jury deliberations and that the verdict
was based solely on the evidence presented at trial.
The five jurors who observed defendant’s shackles
each testified that they believed there was nothing unusual about his shackling and that it did not influence
their respective verdicts. All of the evidence indicated
that the shackling did not affect the verdict in any
way. Thus, the trial court properly found that the
prosecution met its burden of proving beyond a reasonable doubt that the error did not affect the jury’s
verdict. See Deck, 544 US at 635.
Defendant contends that despite the jurors’ specific testimony to the contrary, their testimony about
defendant’s shackles demonstrated that they were
clearly affected by his shackling. Defendant emphasizes the testimony of three jurors who observed his
shackles— Robert Jankord, James Vanderveen, and
Michael Whately—and who testified that they
thought defendant might be dangerous. However,
Jankord, Vanderveen, and Whately each testified that
his belief that defendant might be dangerous was
based the charge of first-degree murder, not the
shackling. They testified that they presumed defendant’s shackles were routine procedure given the
charge and that the shackles did not influence their
verdict in any way. Therefore, contrary to defendant’s
assertion, the jurors’ testimony did not indicate that
the shackling error contributed to the verdict against
defendant.

99a
Also contrary to defendant’s argument, it was
proper for the jurors to testify regarding how viewing
the shackles affected their deliberations. Jurors may
only consider the evidence presented at trial when deliberating and may not consider “extraneous facts not
introduced in evidence.” People v Budzyn, 456 Mich
77, 88; 566 NW2d 229 (1997). Subsequent to trial, jurors may not impeach their own verdict by testimony
or affidavits that “challenge mistakes or misconduct
inherent in the verdict.” Id. at 91. However, one exception is that “oral testimony or affidavits” from jurors may “be received on extraneous or outside errors[.]” Id. Here, the fact that defendant was shackled
was extrinsic error, completely unrelated to the evidence introduced at trial. See id. at 89. While defendant concedes that the viewing of the shackling is an
extraneous error, he maintains that whether the jury
discussed the shackling is not an extraneous error and
should not have been subject to juror testimony at the
evidentiary hearings. However, the Michigan Supreme Court has recognized that a trial court may
properly elicit and consider testimony from the jurors
“to determin[e] the extent to which the jurors saw or
discussed the extrinsic evidence.” Budzyn, 456 Mich
at 91 (emphasis added). Thus, the trial court was not
in error. 2

2

Defendant also contends that the evidence at trial was “hotly
disputed” and that the jury’s decision was essentially one of credibility, rendering the shackling all the more prejudicial. Contrary
to this assertion, the evidence at trial overwhelmingly established defendant’s guilt and belied his contention that he killed
the 103 pound victim in self-defense, a theory that was explicitly
disputed by expert medical testimony.

100a
III. CONCLUSION
The trial court did not err in finding that the prosecution proved beyond a reasonable doubt that the
shackling error did not affect the verdict. We affirm.
/s/ Michael J. Talbot
/s/ Jane E. Markey
/s/ Michael J. Riordan

101a
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0307p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ERVINE LEE DAVENPORT,
Petitioner-Appellant,
No. 17-2267

v.
DUNCAN MACLAREN, Warden,
Respondent-Appellee.

On Petition for Rehearing En Banc
United States District Court for the Western District
of Michigan at Grand Rapids.
No. 1:14-cv-01012—Ellen S. Carmody,
Magistrate Judge.
Decided and Filed: September 15, 2020
Before: COLE, Chief Judge; STRANCH and
READLER, Circuit Judges.
_________________
COUNSEL
ON PETITION FOR REHEARING EN BANC:
Fadwa A. Hammoud, Jared D. Schultz, OFFICE OF
THE MICHIGAN ATTORNEY GENERAL, Lansing,

102a
Michigan, for Appellee. ON RESPONSE: Tasha J.
Bahal, Reuven Dashevsky, WILMER CUTLER PICKERING HALE AND DORR LLP, Boston, Massachusetts, for Appellant.
The panel issued an order denying the petition for
rehearing en banc. STRANCH, J. (pp. 3–7), delivered
a separate opinion concurring in the denial of rehearing en banc, in which COLE, C.J., and MOORE,
CLAY, WHITE, and DONALD, JJ., joined. SUTTON,
J. (pp. 8–11), delivered a separate opinion concurring
in the denial of rehearing en banc, in which KETHLEDGE, J., joined. GRIFFIN, J. (pp. 12–14), delivered
a separate opinion dissenting from the denial of rehearing en banc. THAPAR, J. (pp. 15–28), delivered a
separate opinion dissenting from the denial of rehearing en banc, in which BUSH, LARSEN, NALBANDIAN, READLER, and MURPHY, JJ., joined.
_________________
ORDER
_________________
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original submission and decision. The petition then was circulated
to the full court. Less than a majority of the judges
voted in favor of rehearing en banc.
Therefore, the petition is denied. Judge Readler
would grant rehearing for the reasons stated in his
dissent.

103a
_________________
CONCURRENCE
_________________
STRANCH, Circuit Judge, concurring in the denial of rehearing en banc. The en banc petition and
the dissents throughout the case argue that we stand
alone in how we assess harmless error when, in fact,
we stand in the company of our sister circuits and follow the precedent of the Supreme Court. We have long
held that an underlying trial error must have had a
“substantial and injurious effect or influence in determining the jury’s verdict” for a habeas petitioner to
survive harmless error review. Brecht v. Abrahamson,
507 U.S. 619, 637 (1993) (quoting Kotteakos v. United
States, 328 U.S. 750, 776 (1946)). Following the Supreme Court, we have also repeatedly (and uniformly)
held that applying Brecht exacts AEDPA deference, in
part because it is so much more onerous on habeas petitioners than the Chapman v. California standard
applied by state courts on direct review, 386 U.S. 18
(1967). The Supreme Court recently reiterated the
propriety of this approach, concluding: “[i]n sum, a
prisoner who seeks federal habeas relief must satisfy
Brecht, and if the state court adjudicated his claim on
the merits, the Brecht test subsumes the limitations
imposed by AEDPA.” Davis v. Ayala, 576 U.S. 257,
270 (2015). In that scenario, “a federal habeas court
need not ‘formal[ly]’ apply both Brecht and
‘AEDPA/Chapman.’” Id. at 268 (quoting Fry v. Pliler,
551 U.S. 112, 119–20 (2007)). The opinions that accompany the denial of rehearing en banc are mistaken
to conclude that the panel majority did anything more

104a
than apply this test, as authorized by the Supreme
Court, to Davenport’s case.
Against the plain language of the Supreme Court,
the en banc petition and now the dissenters argue that
courts must be required to apply a separate AEDPA
test on top of Brecht. But that would make our circuit
the outlier. The en banc petition and the original and
current dissents, moreover, cannot cite a single case
across the circuit courts of appeal in which a habeas
petitioner who prevailed under Brecht’s harmlessness
inquiry was then required to pass through the gauntlet of a second harmlessness test. This is because, as
pointed out at length in the majority opinion, the position advanced in the en banc petition rests on a series of legal errors. There is no dispute that both
Brecht and AEDPA must be satisfied for a habeas petitioner to show that a constitutional error was not
harmless. The Supreme Court’s teaching in Ayala
that the Brecht test subsumes the limitations imposed
by AEDPA and our acknowledgment that the Brecht
test handles the work of both tests show that the test
the panel majority applied accomplishes that principle. Davenport also recognizes that courts may choose
to apply AEDPA/Chapman before turning to Brecht’s
more demanding inquiry. In sum, Davenport merely
reiterates the unremarkable tenet that when the state
concedes a constitutional trial error, we can assess
harmlessness under Brecht. A closer look at the opinions cited in the en banc petition and the original dissent reveals a consistent interplay between the tests:
if a petitioner would lose under AEDPA/Chapman, he
necessarily would lose under Brecht; if the petitioner
would prevail under Brecht, he necessarily would prevail under AEDPA/Chapman.

105a
The opinions filed with the denial of rehearing en
banc either parrot the original dissent, faltering for
the reasons explained at length in the majority opinion, or raise peripheral and undisputed issues inappropriate for further appellate review in this case. A
critical error, from which others follow, is the notion
that our majority decision turns wide of AEDPA’s
guardrails or simply ignores them altogether. Following the original dissent’s call for en banc review, pages
of the majority opinion were devoted to showing that
far from ignoring AEDPA, we apply it—full force—to
Davenport’s case. See, e.g., Davenport v. MacLaren,
964 F.3d 448, 458–59 (6th Cir. 2020). The majority
also shows that requiring federal habeas tribunals to
perform a two-step harmless error analysis contravenes Sixth Circuit and Supreme Court precedent. Id.
at 454–59. The majority decision was not waylaid by
Fry’s procedural differences; it instead shows that
Ayala confirmed the application of Brecht to Davenport’s case. See id. at 456, 458 n.8. In addition, the majority demonstrates that though there may have been
a historical circuit split on the standard of review issue, Ayala cleared up the division and specifically authorized the test applied in this case. Id. at 457. And
the majority opinion reveals that many of the circuit
cases cited by the dissent, read carefully, confirm the
precise dynamic between Brecht and AEDPA that the
majority applied. See, e.g., Sifuentes v. Brazelton, 825
F.3d 506, 535 (9th Cir. 2016) (citation omitted) (quoting Ayala, 576 U.S. at 270):
In sum, a petitioner “necessarily cannot satisfy” the Brecht requirement of showing that
he was “actually prejudiced” by the state
court’s error . . . “if a fairminded jurist could

106a
agree with the [state appellate court] that this
procedure met the Chapman standard of
harmlessness.” By the same token, if a petitioner does satisfy the Brecht requirement of
showing that an error resulted in “actual prejudice,” then the petitioner necessarily must
have shown that the state court’s determination that the error was harmless was objectively unreasonable.
Nor has there been an intra-circuit split in the
Sixth Circuit regarding the test to be applied to state
court harmlessness assessments. Cases like Stewart
v. Trierweiler, 867 F.3d 633 (6th Cir. 2017), and
Hollman v. Sprader, 803 F. App’x 841 (6th Cir. 2020),
merely show that habeas relief can be denied on
AEDPA/Chapman grounds without reaching Brecht—
an analytical approach that, as painstakingly explained in the majority opinion, is consistent with
Davenport. Davenport, 964 F.3d at 455. Both dissenters from denial of rehearing en banc recently applied
the very rule they now decry. Judge Thapar called the
harmless error framework “a choice of prompts,” in
which one “option—a shortcut of sorts—is to leapfrog
AEDPA and jump directly to Brecht.” Hollman v.
Sprader, 803 F. App’x 841, 843 (6th Cir. 2020) (citing
Ayala, 576 U.S. at 268–70). Judge Griffin wrote: “[t]he
Supreme Court and this court have made clear that
‘Brecht is always the test’ for evaluating harmless error on collateral review, even where AEDPA applies.”
Reiner v. Woods, 955 F.3d 549, 556 (6th Cir. 2020)
(quoting Ruelas v. Wolfenbarger, 580 F.3d 403, 412
(6th Cir. 2009)). The majority decision simply took the
unremarkable step of employing our existing circuit
standard, which applies Supreme Court precedent. In

107a
sum, federal courts across the nation apply Brecht after Ayala. We do too.
My dissenting colleagues also express alarm
about the facts of this case in which, different from
other cited cases, the Brecht test was satisfied. Admittedly, cases presenting AEDPA issues by their nature
contain concerning facts. That is true here. But the
manner or type of case does not control what legal
standards apply. And the constitutional right to a fair
trial cannot depend upon a defendant’s admission to
certain underlying—and even egregious—facts.
A few other points are worth mentioning. The majority opinion did not apply a “presumption of prejudice,” as the dissents suppose. That language is not in
the majority opinion. Equally misguided is the observation that, notwithstanding the standard of review
dispute, the panel majority extended Supreme Court
precedent to reach its disposition. My colleagues assert that the majority “relied primarily on Sixth Circuit decisions” in evaluating the state courts’ harmless error decision, (Sutton Concurring Op. at 3), and
that it “rel[ied] upon circuit precedent to show what a
general Supreme Court standard clearly establishes,”
(Thapar Dissenting Op. at 10). True, clearly established law is determined solely by Supreme Court rulings, Stewart v. Erwin, 503 F.3d 488, 493 (6th Cir.
2007), not by circuit precedent, Kernan v. Cuero, 138
S. Ct. 4, 9 (2017). And circuit precedent cannot turn “a
general principle of Supreme Court jurisprudence into
a specific legal rule” that has not been stated by the
Supreme Court. Lopez v. Smith, 574 U.S. 1, 7 (2014)
(quoting Marshall v. Rodgers, 569 U.S. 58, 64 (2013)).
The majority decision did not violate these dictates.

108a
Instead, “in accordance with its usual law-of-the-circuit procedures, [it] look[ed] to circuit precedent to ascertain whether it ha[d] already held that the particular point in issue is clearly established by Supreme
Court precedent”—an approach the Supreme Court
has explicitly sanctioned. Marshall, 569 U.S. at 64.
The rule is not that the act of citing a Sixth Circuit
precedent in this context automatically dooms an
opinion. None of the majority’s references to Sixth Circuit precedents overstep the bounds set out by the Supreme Court. The opinion addressed the procedural
differences between Davenport’s case and Deck v. Missouri, 544 U.S. 622 (2005). And it then turned to the
Supreme Court’s admonition that “[t]he law has long
forbidden routine use of visible shackles during the
guilt phase” of a criminal trial because “shackling is
‘inherently prejudicial.’” Id. at 626, 635 (quoting
Holbrook v. Flynn, 475 U.S. 560, 568 (1986)). Here,
the State of Michigan does not dispute that there was
no on-the-record justification for the shackling and
therefore it was unconstitutional. And the majority
opinion did not ignore post-trial juror testimony or
speculate about juror bias. Instead, it specifically addressed testimony given by jurors three years after
trial that they still remember that Davenport was
shackled during trial, leaving them with the impression that he was dangerous. In this context, moreover,
the Supreme Court has specified that “[i]f ‘a procedure
employed by the State involves such a probability that
prejudice will result that it is deemed inherently lacking in due process,’ little stock need be placed in jurors’ claims to the contrary.” Holbrook, 475 U.S. at 570
(citation omitted) (quoting Estes v. Texas, 381 U.S.
532, 542–43 (1965)). Nor does application of the

109a
Brecht test make it inappropriate to assess whether
shackles branded Davenport as having a violent nature in a case depending on the sharp distinction
drawn by Michigan law between first-degree and second-degree murder, which requires that “first-degree
murder be committed with premeditation and deliberation.” People v. Morrin, 187 N.W.2d 434, 448–49
(Mich. Ct. App. 1971). In sum, as the majority opinion
explicitly noted, the Supreme Court’s shackling jurisprudence was the exclusive basis for its reasoning; it
directly applied relevant and specific holdings of
Holbrook and Deck. Davenport, 964 F.3d at 466–67.
Ultimately, a majority of this court denied en banc
review because it recognized that Davenport is but a
recent installment in a chain of Sixth Circuit decisions
that follow Supreme Court precedent and apply
Brecht to a state court’s harmless error analysis. For
the reasons more fully set out in the majority opinion,
I concur in the conclusion of our full court that this
case does not require en banc review.
_________________
CONCURRENCE
_________________
SUTTON, Circuit Judge, concurring in the denial
of rehearing en banc. This en banc petition implicates
a nagging tension between deciding cases correctly
and delegating to panels of three the authority to decide cases on behalf of the full court.
I am skeptical that the panel decided this case correctly. At stake is whether Ervine Lee Davenport, a
Michigan prisoner convicted of first-degree murder for

110a
choking Annette White to death, is entitled to habeas
relief for a Fourteenth Amendment Due Process violation caused when the trial court required him to
wear shackles during his trial. On direct appeal, the
Michigan Supreme Court determined that any constitutional violation was harmless and denied Davenport
relief. On collateral review, the Michigan Attorney
General’s Office conceded that the trial court’s shackling decision rose to the level of a constitutional violation but defended the state supreme court’s decision
that it was harmless. The panel granted the habeas
petition on the ground that it was not harmless over a
dissent by Judge Readler.
Anyone who has been an Article III judge for five
years or more has seen this movie, at least part of this
movie, before. What is the correct way to characterize
the showing needed to obtain habeas relief when it
comes to establishing that the state court’s harmlessness ruling warrants correction after passage of the
Antiterrorism and Effective Death Penalty Act of
1996? Debates over the answer center on two preAEDPA decisions. Does the Chapman test—which requires the government to “prove beyond a reasonable
doubt that the error complained of did not contribute
to the verdict”—capture the proper approach together
with the AEDPA requirement that any Chapman ruling must be “unreasonable”? Chapman v. California,
386 U.S. 18, 24 (1967); 28 U.S.C. § 2254(d)(1). Or does
the Brecht test—which requires a court on collateral
review to have deep doubt about whether the error
“had substantial and injurious effect or influence in
determining the jury’s verdict”—capture the proper
approach by itself? Brecht v. Abrahamson, 507 U.S.
619, 637 (1993) (quotation omitted). It has never

111a
seemed easy to sort out the difference between these
standards, sometimes even to know which one favors
whom, and it does not help matters that they both predate AEDPA. More recently, Davis v. Ayala referred
to the Brecht formulation, said that it “subsumes”
AEDPA, and explained that this language did not
make AEDPA irrelevant to harmless-error decisions
by state courts. 576 U.S. 257, 269–270 (2015).
For my part, I would answer the problem this way.
On direct review of criminal convictions, the Chapman harmlessness standard applies. On collateral review, two main possibilities arise. If the state court
issues a ruling on the harmlessness question under
Chapman, then habeas claimants may obtain relief
only if they can show that the state court’s Chapman
ruling sank to the level of an “unreasonable application of” “clearly established” federal law under
AEDPA. If the state court does not issue a ruling on
the merits of the harmlessness question, then the
Brecht standard applies to our review of the decision.
This approach seems to account for the Court’s view
that Brecht “subsumes” AEDPA and its view that
AEDPA remains pertinent to federal court review of
state court decisions.
But the standard-of-review question in these sorts
of cases—how to capture the ineffable test and the
burden of proof in meeting it, to say nothing of the
meaning of “subsumes”—can become a distraction,
prompting lawyers and courts to overlook core process
principles that we must account for under AEDPA before second-guessing state court convictions. The key
one overlooked in this case is that we must measure
constitutional challenges by the yardstick of United

112a
States Supreme Court decisions, not the Chancellor’s
foot of our own decisions.
Remember the relevant language of AEDPA. It
prohibits us from granting a habeas petition for a
claim adjudicated on the merits in state court unless
the state court unreasonably applied “clearly established Federal law, as determined by the Supreme
Court[.]” 28 U.S.C. § 2254(d)(1). Ayala tells us that a
state court’s harmless-error determination constitutes an adjudication on the merits under AEDPA.
576 U.S. at 269. The state courts held that Davenport’s shackling was harmless. That requires us to
measure the state court’s decision against holdings of
the United States Supreme Court, not holdings of our
court. White v. Woodall, 572 U.S. 415, 419 (2014).
But that’s not what the panel did. In deciding that
the state courts clearly erred in their harmless-error
decision, the panel relied primarily on Sixth Circuit
decisions. That’s the wrong benchmark. AEDPA forbids it. And the United States Supreme Court has not
been reticent about correcting lower courts that violate this core measuring stick under AEDPA. See, e.g.,
Kernan v. Cuero, 138 S. Ct. 4, 9 (2017) (per curiam);
Glebe v. Frost, 574 U.S. 21, 24 (2014) (per curiam).
That brings me to the second process problem. As
to the one Supreme Court decision the panel did consider, Deck v. Missouri, 544 U.S. 622 (2005), Deck did
not offer a holding on the harmlessness question.
While it said that Chapman would apply to any error,
see 544 U.S. at 635, it did not provide “clearly established” law about how to apply a harmlessness test to
a shackling violation. It simply left matters at a Mt.
Everest-level of generality, whether it’s the Chapman

113a
formulation mentioned there or the Brecht formulation mentioned in Ayala. So the panel’s reliance on
Deck also violates AEDPA and Supreme Court interpretations of it. Nevada v. Jackson, 569 U.S. 505, 512
(2013) (per curiam). Unlike this case, Deck involved
the use of physical restraints fully visible to the jury.
See Davenport v. MacLaren, 964 F.3d 448, 478 (6th
Cir. 2020) (Readler, J., dissenting). And unlike this
case, Deck had no reason to apply the harmlessness
test to such a violation. Those are distinctions with
plenty of differences. Over and over, the Supreme
Court has admonished us not to frame its holdings at
such a lofty level of generality in deciding what law
has been “clearly established.” Lopez v. Smith, 574
U.S. 1, 6 (2014) (per curiam) (quotation omitted); Metrish v. Lancaster, 569 U.S. 351, 367–68 (2013).
These problems with the panel’s decision and its
debate over Chapman/Brecht seem to be recurring
ones in our circuit and outside of it, suggesting that
there is room for clarification by the Supreme Court
when it comes to federal court review of state court
harmless-error decisions under AEDPA—and the process obligations of lower courts in applying the statute. Just read the eighteen combined pages devoted to
the standard of review by this one panel for evidence.
It’s been five years since the Court’s most recent contribution to the area and of course many decades since
Chapman and Brecht. I suspect every federal judge in
the country would welcome guidance in the area.
One last note. Query whether future panels need
to follow one aspect of the panel’s decision, its use of
Sixth Circuit decisions to satisfy AEDPA. That was
not a holding of the court on a matter debated by the

114a
parties. The Michigan Attorney General’s Office did
not raise the point, and as a result it was not joined
by the parties or for that matter the panel. A panel’s
implicit resolution of an issue that was neither raised
by the parties nor engaged by the panel generally does
not bind future panels. See United States v. L.A.
Tucker Truck Lines, Inc., 344 U.S. 33, 37–38 (1952);
Webster v. Fall, 266 U.S. 507, 511 (1925). Because
Michigan never raised the point, the panel had no occasion to justify its use of circuit precedent to find a
clear violation of federal law. The question thus appears to remain open for future panels to consider in
the first instance.
That aspect of the decision makes me reluctant to
grant en banc review in this case. So does one other
consideration. The problem at hand turns mainly on
what to make of language in Supreme Court decisions,
particularly the meaning of “subsumes” first mentioned in Fry v. Pliler, 551 U.S. 112, 120 (2007), and
repeated in Ayala. Countless inefficiencies arise when
a full intermediate court debates the meaning of vexing language from the Supreme Court, the most obvious being this: Not only are we fallible, we are not final either. No. 17-2267 Davenport v. MacLaren Page
12
_________________
DISSENT
_________________
GRIFFIN, Circuit Judge, dissenting.
I respectfully dissent from the denial of the petition for rehearing en banc.

115a
By the vote of 8–7, our en banc court has denied
respondent’s petition for rehearing en banc. This is
most unfortunate for our circuit because the 2–1 panel
opinion conflicts with a previous decision of our court
and is clearly wrong on a habeas-corpus issue of exceptional importance. While some of my colleagues
agree, they nevertheless have opposed the petition in
the hope that the Supreme Court will reverse us yet
again to clean up our intra-circuit mess. 1 This denial
of rehearing en banc is reminiscent of CNH Industrial
N.V. v. Reese, 138 S. Ct. 761 (2018), wherein we were
reversed unanimously by the Supreme Court in a per
curiam opinion and admonished that “the en banc
Sixth Circuit has been unwilling (or unable) to reconcile its precedents.” Id. at n.2.
The Federal Rules of Appellate Procedure provide
an important and necessary remedy for courts of appeals to correct their conflicts and errors of exceptional importance. While en banc hearings or rehearings are not favored, they are authorized when:
1) en banc consideration is necessary to secure or
maintain uniformity of the court’s decisions; or
2) the proceeding involves a question of exceptional importance.
Fed. R. App. P. 35(a). This case cries out for rehearing
en banc by operation of both 35(a)(1) and 35(a)(2).

1 See, e.g., Int’l Union v. Kelsey-Hayes Co., 872 F.3d 388, 390–

93 (6th Cir. 2017) (Griffin, J., dissenting from the denial of the
petition for rehearing en banc).

116a
First, rehearing en banc is necessary “to secure or
maintain uniformity of [our] court’s decisions.” The
majority Davenport v. MacLaren opinion is in direct
conflict with our prior published opinion, Stewart v.
Trierweiler, 867 F.3d 633 (6th Cir. 2017). Specifically,
in Stewart, Judge Sutton, writing for our unanimous
court, ruled that the habeas petitioner had not sustained his burden of proving that a state court’s ruling
of harmless error was an “unreasonable application of
clearly established federal law as determined by the
Supreme Court of the United States.” Id. at 636–38.
Thus by operation of the Antiterrorism and Effective
Death Penalty Act of 1996, 28 U.S.C. § 2254 (AEDPA),
the petitioner in Stewart was not entitled to habeas
relief. 867 F.3d at 638; see also Cullen v. Pinholster,
563 U.S. 170, 181 (2011) (“The petitioner carries the
burden of proof” under § 2254(d)).
Opposite to Stewart, the Davenport majority held
that respondent Warden had not sustained his burden
of demonstrating that the error was not harmless.
Davenport v. MacLaren, 964 F.3d 448, 451 (6th Cir.
2020) (“[T]he State has not met its burden to show the
restraints did not have a substantial and injurious effect or influence in determining the jury’s verdict.”).
Moreover, contrary to Davis v. Ayala, 576 U.S.
257, 268 (2015) (“AEDPA nevertheless ‘sets forth a
precondition to the grant of habeas relief’” (emphasis
added and citation omitted)), and in conflict with
Stewart, the Davenport panel held that AEDPA does
not apply to issues of harmless error raised in habeas
corpus petitions. 964 F.3d at 460–63. Davenport
viewed the standards of Brecht v. Abrahamson, 507
U.S. 619 (1993), and AEDPA as the same. They are

117a
not. While a constitutional error resulting in actual
prejudice is sufficient under Brecht, id. at 637,
AEPDA requires more.
Specifically, AEDPA requires the petitioner to
prove that the error is “an unreasonable application of
[] clearly established Federal law, as determined by
the Supreme Court of the United States.” § 2254(d)(1).
This standard is materially different from proving actual prejudice. As Judge Readler emphasized in his
Davenport dissent, while “[i]t may be that a federal
court can deny habeas relief by ‘go[ing] straight to
Brecht[,]’” 964 F.3d at 469 (Readler, J., dissenting) (citations omitted), a court may not grant a writ of habeas corpus unless the petitioner also sustains his
burden under AEDPA of proving that the state court
ruling was “an unreasonable application of[] clearly
established Federal law, as determined by the Supreme Court of the United States.” § 2254(d)(1); see
also Johnson v. Acevedo, 572 F.3d 398, 403–04 (7th
Cir. 2009).
In addition, because Stewart was an earlier published decision of our court, Stewart should have been
precedentially binding for Davenport. 6 Cir. Rule
32.1(b); Miller v. Caudill, 936 F.3d 442, 447–48 (6th
Cir. 2019). However, I also acknowledge that other decisions appear to conflict with Stewart, see, e.g.,
O’Neal v. Balcarcel, 933 F.3d 618, 625 (6th Cir. 2019);
McCarley v. Kelly, 801 F.3d 652, 665 (6th Cir. 2015),
thus compounding our intra-circuit conflict.
Second, the issue of harmless error for habeas corpus petitions is of exceptional importance, particularly for our court because we review habeas corpus
death penalty petitions arising from three of the four

118a
states in our circuit. In this regard, the issues of which
party has the burden of persuasion on the issue of
harmless error for habeas review and whether
AEDPA applies are fundamental to our judicial system.
I note that our sister courts of appeals are on the
other side on these issues. It appears that we are alone
in taking a “straight to Brecht approach” in determining on habeas review whether a state court’s constitutional error was harmless. See Davenport, 964 F.3d at
475–77 (Readler, J., dissenting) (collecting cases).
Finally, the Davenport holding that AEDPA is inapplicable to harmless error rulings by state courts
trammels upon the important federalism principles
that undergird AEDPA. See, e.g., Woodford v.
Garceau, 538 U.S. 202, 206 (2003).
For these reasons, and for those articulated by
Judge Readler in his persuasive panel dissent, I respectfully dissent. Because our litigants, attorneys,
and judges need guidance from our en banc court on
these issues of exceptional importance, I would grant
respondent’s petition for rehearing en banc.

_________________
DISSENT
_________________
THAPAR, Circuit Judge, dissenting from the denial of rehearing en banc. Thirteen years ago, on a cold
night in January, Earl Davenport killed Annette

119a
White. He closed his hand around her neck and held
it there as she struggled against him. Minutes later,
she was dead.
Despite the overwhelming evidence of Davenport’s guilt, a panel majority voted to vacate his conviction. It did so without even applying AEDPA deference to the state court’s harmless-error determination.
This tragic case thus presents a fundamental
question of habeas jurisprudence: Must a state court’s
harmless-error determination receive AEDPA deference under 28 U.S.C. § 2254(d)(1)? The plain text of
the statute says that the answer is yes. But the panel
majority held that the answer is no. According to the
panel opinion, federal judges can simply ignore
AEDPA’s guardrails whenever they find that a petitioner has suffered actual prejudice under Brecht v.
Abrahamson, 507 U.S. 619 (1993). This holding casts
aside AEDPA and misinterprets Supreme Court precedent. That matters because AEDPA’s procedural
rules have bite that Brecht lacks. The holding also
deepens an existing circuit split. And what’s more, the
panel opinion defies Brecht itself, granting habeas relief based on mere speculation and a thin stack of academic articles, some of which postdate the state
court’s decision.
Given these errors and their importance, this case
merited the attention of the en banc court. I respectfully dissent.

120a
I.
A.
At trial, Davenport did not contest that he killed
Annette White. Instead, he claimed that he acted in
self-defense. As Davenport tells it, they were both
high on crack cocaine that night, and he was driving
her around. They started arguing. He was trying to
focus on traffic, and she pulled out a box cutter. At
that point, he grabbed her by the neck and pinned her
against the passenger-side window. He was choking
her. She started kicking, and he pushed against her
neck even harder. He says that even though the strangulation “happened quick[ly],” “it seemed like it took
forever.”
It did. According to the medical examiner’s testimony, it would have taken at least four minutes for
Annette to die. She would have passed out much
sooner, perhaps after thirty to forty seconds without
oxygen. So maybe at the start, the 6'5", 260-pound
Davenport was up against an angry, argumentative,
5'2" Annette—all one hundred pounds of her. Maybe
at the start, she had a box cutter. But soon he was up
against an unconscious Annette: no more anger, no
more knife.
Yet he kept his hand around Annette’s throat. She
was unconscious. Seconds passed, then minutes
passed, then she was dead. Davenport claims he was
driving this entire time.
He then proceeded to dump Annette’s body in a
field. After leaving her face down in the dirt—wearing
a bra and bloodied underwear and one sock—he went

121a
to her house. He took some of her food, stole her stereo, and then met up with friends to smoke more
crack. How did he feel about Annette’s death? “Just a
bad situation,” he said. “That’s all. Just a bad situation.”
Davenport was familiar with bad situations. Annette wasn’t even the first person he had choked that
week. Five days before, he found himself annoyed with
another woman, so he came up behind her and circled
his hands around her neck. He squeezed, lifting her
off the ground. She bit her tongue and urinated on
herself as she blacked out. By a stroke of luck, her boyfriend walked in. He saw his girlfriend unconscious,
feet off the floor, dangling from Davenport’s hands.
Davenport let her go, and she survived. “You know,
you’re lucky,” he told her later. “I wanted to squish
you like a bug.”
Strangling, it seems, is how Davenport dealt with
problems. He would brag about it, flexing his hands:
He didn’t have to worry about anyone giving him trouble; he’d just “choke ’em up” if it got bad. That’s what
happened to Annette. And the jury concluded it was
first-degree murder.
B.
Davenport was partially shackled during trial.
His right hand was uncuffed so that he could write
notes to his attorney. And there was a privacy curtain
around defense counsel’s table. Yet the trial court
never made on-the-record findings justifying the restraints.

122a
On appeal, the Michigan Supreme Court held that
the shackling was unconstitutional. It remanded for a
determination of whether the jury saw the shackles,
and if so, whether the prosecution could show beyond
a reasonable doubt that the error did not affect the
verdict. People v. Davenport, 794 N.W.2d 616 (Mich.
2011) (order) (Davenport I).
The trial court then held a two-day evidentiary
hearing. All twelve jurors testified. Five saw the restraints; four never noticed them; two heard about
them from other jurors; and one couldn’t remember either way. The jurors testified that the restraints were
never discussed during deliberations, and that to the
extent they thought Davenport was dangerous, it was
because he was on trial for first-degree murder. Thus,
the trial court ruled that the prosecution had proved
beyond a reasonable doubt that the shackling did not
affect the verdict.
Davenport appealed again, and the Michigan
Court of Appeals affirmed. It held that the trial court
“did not err in finding that the prosecution proved beyond a reasonable doubt that the shackling error did
not affect the verdict.” People v. Davenport, No.
306868, 2012 WL 6217134, at *3 (Mich. Ct. App. 2012)
(per curiam) (Davenport II).
The Michigan Supreme Court denied leave to appeal. In denying leave to appeal, it said that Holbrook
should have governed the lower court’s harmless-error analysis. People v. Davenport, 832 N.W.2d 389
(Mich. 2013) (Davenport III) (citing Holbrook v. Flynn,
475 U.S. 560, 570 (1986)). But the result would have
been the same either way, the court reasoned, “given

123a
the substantial evidence of guilt presented at trial.”
Id. Thus, the case did not merit its review.
Next, Davenport filed a habeas petition in federal
court, which the district court denied. This court then
granted a certificate of appealability, and a threejudge panel reversed over Judge Readler’s dissent. According to the majority, Davenport’s shackling
amounted to actual prejudice under the Brecht standard. Davenport v. MacLaren, 964 F.3d 448, 468 (6th
Cir. 2020) (Davenport IV). It thus vacated his conviction and ordered Michigan to release or retry Davenport within 180 days. Id. In throwing out Davenport’s
conviction, the majority held that courts do not have
to apply AEDPA deference once they make a finding
of actual prejudice under Brecht. Id. at 457–58. But as
Judge Readler’s forceful dissent points out, the majority’s error has real consequences—both for this case
and for many cases to come.
II.
The majority’s opinion suffers from two fatal
flaws. First, it refuses to apply AEDPA deference to
the state court’s harmless-error determination, holding that the Brecht standard obviates any need for doing so. Second, it misapplies Brecht, granting habeas
relief based on little more than speculation. And as a
result of those two errors, the panel vacates the conviction of a Michigan murderer.
A.
The panel majority first erred in holding that
AEDPA deference does not apply to state court harmless-error determinations. See Davenport IV, 964 F.3d

124a
at 456–57. In reaching this erroneous conclusion, the
majority misconstrues AEDPA, misapplies Supreme
Court precedent, and deepens an existing circuit split.
1.
To understand how the panel erred in its application of AEDPA, it is important to understand how a
criminal defendant can challenge alleged constitutional violations. First, he must bring his challenge in
state court. And if the state court finds a constitutional violation, it then analyzes whether that error
was “harmless beyond a reasonable doubt.” Chapman
v. California, 386 U.S. 18, 24 (1967).
If the state court finds that the error was harmless
beyond a reasonable doubt, the petitioner can then
seek habeas relief in federal court. But even before
AEDPA, the Supreme Court recognized that habeas is
an “extraordinary remedy” designed to protect those
who have been “grievously wronged.” Brecht, 507 U.S.
at 633–34 (citation omitted). Thus, the Supreme Court
held that a habeas petitioner can only obtain relief
when he demonstrates “actual prejudice.” Id. at 637
(citation omitted). Actual prejudice exists when a
judge finds that an error had a “substantial and injurious effect or influence in determining the jury’s verdict.” Id.
But that wasn’t enough for Congress. So three
years after Brecht, Congress passed and the President
signed into law the Antiterrorism and Effective Death
Penalty Act of 1996. Under AEDPA, federal courts can
grant habeas relief only when a state court’s adjudication of a federal claim (1) “resulted in a decision that
was contrary to, or involved an unreasonable

125a
application of, clearly established Federal law, as determined by the Supreme Court,” or (2) “was based on
an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.”
28 U.S.C. § 2254(d). Put differently, if “fairminded jurists could disagree on the correctness of the state
court’s decision,” federal courts must deny habeas relief. Harrington v. Richter, 562 U.S. 86, 101 (2011)
(cleaned up). And that remains true even if a court
also finds actual prejudice under Brecht.
2.
This case presents the question whether a state
court’s harmless-error determination must always receive AEDPA deference in accordance with §
2254(d)(1). Under the plain text of AEDPA, the answer is clear—yes.
Habeas requires us to review the final state court
decision. Harrington, 562 U.S. at 98–99. When that
decision rests on the harmlessness of an alleged error
(as is the case here), federal courts must determine
whether the state court’s harmless-error determination “was contrary to, or involved an unreasonable application of, clearly established Federal law.” 28
U.S.C. § 2254(d)(1). That is because federal law—
namely Chapman—governs the harmless-error inquiry in state court. Thus, AEDPA’s text requires deference to a state court’s harmless-error inquiry.
Supreme Court precedent confirms this commonsense reading of the statute. In Davis v. Ayala, the
Court explained that independent of Brecht, “the limitation on federal habeas relief that § 2254(d) plainly
sets out” continues to apply. 576 U.S. 257, 268 (2015).

126a
Indeed, the Supreme Court has squarely held that
“habeas relief is appropriate only if [a state court has]
applied harmless-error review in an ‘objectively unreasonable’ manner.” Mitchell v. Esparza, 540 U.S. 12,
18 (2003) (per curiam) (citation omitted). The panel
majority ignores that rule here. Thus, not only does
the panel opinion conflict with the plain text of
AEDPA, it also violates controlling Supreme Court
precedent.

3.
How does the panel majority avoid AEDPA’s limits? By first misapplying Supreme Court precedent
and then clouding the important differences between
Brecht and AEDPA review.
Start with precedent. The panel’s confusion begins with Fry v. Pliler, 551 U.S. 112 (2007). That case
concerned what standard federal courts should apply
on collateral review when a state court finds no constitutional error and thus doesn’t make a harmlesserror determination: Brecht or Chapman? See id. at
120 & n.2. The Supreme Court held that even when a
state court makes no harmless-error determination,
federal courts must still apply the Brecht test rather
than Chapman’s lower standard. Id. at 118–19. In this
context, the Court reasoned, Brecht “obviously subsumes” the AEDPA/Chapman test because it requires
a higher showing for prejudice, so it “makes no sense
to require formal application of both tests.” Id. at 120.
Simply put, Fry stands for the proposition that there
is nothing to defer to under AEDPA when a state court
does not make a harmless-error determination. Id. at

127a
119–20; see Johnson v. Acevedo, 572 F.3d 398, 404 (7th
Cir. 2009) (Easterbrook, J.) (adopting this reading of
Fry).
The panel takes Fry’s “obviously subsumes” dictum from its case-specific context and insists that
Brecht can always operate as a complete substitute for
AEDPA deference. See Davenport IV, 964 F.3d at 458–
59. But this misreads Fry. Indeed, a closer look at Fry
reveals that—far from suggesting that AEDPA’s
guardrails are surplusage—the Supreme Court confirmed that courts must ordinarily apply AEDPA
alongside Brecht: “[W]hen a state court determines
that a constitutional violation is harmless, a federal
court may not award habeas relief under § 2254 unless the harmlessness determination itself was unreasonable.” Fry, 551 U.S. at 119 (citing Mitchell, 540
U.S. 12).
If any doubt remains, the Supreme Court’s subsequent decision in Ayala should quash it. There the
Court explained that “[t]he Fry Court did not hold—
and would have had no possible basis for holding—
that Brecht somehow abrogates the limitation on federal habeas relief that § 2254(d) plainly sets out.”
Ayala, 576 U.S. at 268. So while there will be cases in
which “a federal habeas court need not formally apply
both Brecht and AEDPA/Chapman, AEDPA nevertheless sets forth a precondition to the grant of habeas
relief.” Id. (cleaned up).
For all of these reasons, state court harmless-error determinations are entitled to AEDPA deference
under § 2254(d).

128a
4.
The panel majority contends that its non-application of AEDPA makes sense because Brecht imposes a
higher bar than Chapman for granting habeas relief.
See Davenport IV, 964 F.3d at 458 & n.6. And since
Brecht imposes a higher bar than Chapman, the panel
reasons that we can safely ignore AEDPA’s statutory
guardrails. But this approach makes little sense from
a first-principles perspective. Why? Because Brecht
and AEDPA call for distinct inquiries.
Brecht asks whether a criminal defendant was actually prejudiced by a constitutional error. 507 U.S. at
637. AEDPA, on the other hand, asks whether a state
court decision was unreasonable based on two factors:
(1) clearly established federal law, and (2) evidence
presented in state court proceedings. 28 U.S.C. §
2254(d). So while Brecht might impose a stricter substantive standard for relief than Chapman standing
alone, Brecht and AEDPA ask different questions and
are governed by different procedural rules. It thus
makes little sense to say that a finding of actual prejudice under Brecht obviates any need to apply
AEDPA’s clear rules.
To be sure, if a habeas petitioner has not suffered
actual prejudice under Brecht, a state court’s determination that an error was harmless will always be reasonable under § 2254(d). Thus, a court must deny habeas outright when Brecht is not satisfied. See, e.g.,
Hollman v. Sprader, 803 F. App’x 841, 843 (6th Cir.
2020).
But the inverse is not also true: A showing of actual prejudice under Brecht does not mean that a

129a
petitioner has also satisfied AEDPA’s requirements.
Taking a closer look at the core differences between
Brecht and AEDPA shows why, even if one accepts the
panel’s Brecht analysis, AEDPA would require that
we still affirm the conviction.
First, under the Brecht standard, a petitioner isn’t
limited to clearly established Supreme Court precedent. A petitioner can thus argue for an expansion of
Supreme Court precedent when attempting to show
Brecht prejudice (at least absent AEDPA). But under
AEDPA, extending Supreme Court precedent is improper. See White v. Woodall, 572 U.S. 415, 425–26
(2014); 28 U.S.C. § 2254(d)(1).
This case shows why this rule matters. The panel
majority rejected Michigan’s harmless-error determination in part because the state court relied on posttrial testimony from jurors. Davenport IV, 964 F.3d at
466; id. at 478 (Readler, J., dissenting). The majority
contends that Holbrook bars Michigan’s approach.
475 U.S. 560. But Holbrook concerned pretrial testimony from prospective jurors during voir dire about
what effect uniformed law enforcement officers might
have on their perception of the defendants. Id. at 565.
That is a far cry from post-trial testimony from jurors
about how shackling actually affected their verdict.
Thus, the majority had to extend Holbrook to apply it
here. Davenport IV, 964 F.3d at 479 (Readler, J., dissenting). And while such extensions might be permissible under Brecht itself, they are strictly prohibited
by AEDPA. Woodall, 572 U.S. at 425–26; see also Virginia v. LeBlanc, 137 S. Ct. 1726, 1728–29 (2017) (per
curiam).

130a
Second, under Brecht, a petitioner arguably could
rely upon circuit precedent to show how Supreme
Court cases should be applied. But as the Supreme
Court has repeatedly reminded us in the AEDPA context, we may not rely upon circuit precedent to show
what a general Supreme Court standard clearly establishes. The Supreme Court’s warning speaks for itself:
“As we explained in correcting an identical error by
the Sixth Circuit two Terms ago, circuit precedent
does not constitute ‘clearly established Federal law, as
determined by the Supreme Court.’ It therefore cannot form the basis for habeas relief under AEDPA. Nor
can the Sixth Circuit’s reliance on its own precedents
be defended in this case on the ground that they
merely reflect what has been clearly established by
our cases.” Parker v. Matthews, 567 U.S. 37, 48–49
(2012) (cleaned up).
Again, this case shows why AEDPA’s constraints
matter. The majority relies on Sixth Circuit and Ninth
Circuit cases to extend Supreme Court precedent in
the shackling (or, as here, partial-shackling) context.
See Davenport IV, 964 F.3d at 465–68 (citing
Ruimveld v. Birkett, 404 F.3d 1006, 1018 (6th Cir.
2005); Rhoden v. Rowland, 172 F.3d 633, 637 (9th Cir.
1999)). Based on that caselaw, the majority assumes
that a “presumption of prejudice” attaches any time a
juror sees a shackled defendant, and that the “duration of the jury’s deliberations” matter. See id. Yet Supreme Court caselaw does not require state courts to
consider these factors when conducting a harmless-error analysis. So under AEDPA, the state court cannot
be faulted for unreasonably applying “clearly established Federal law, as determined by the Supreme
Court.” 28 U.S.C. § 2254(d)(1).

131a
Third, under the AEDPA standard, state courts
have broad discretion when Supreme Court precedent
speaks at high levels of generality. Renico v. Lett, 559
U.S. 766, 776 (2010) (“Because AEDPA authorizes federal courts to grant relief only when state courts act
unreasonably, it follows that the more general the
rule at issue—and thus the greater the potential for
reasoned disagreement among fair-minded judges—
the more leeway state courts have in reaching outcomes in case-by-case determinations.” (cleaned up)).
In the shackling context, the Supreme Court has told
us generally that Chapman applies. But it has not told
us specifically how state courts must conduct their
Chapman inquiries. Compare Deck v. Missouri, 544
U.S. 622, 635 (2005) (requiring general harmless-error analysis in the shackling context), with Delaware
v. Van Arsdall, 475 U.S. 673, 684 (1986) (identifying
more specific harmless-error factors in the Confrontation Clause context). Thus, state courts may adopt any
reasonable approach when determining whether
shackling the defendant was harmless.
Once more, this case highlights why AEDPA has
bite. To determine whether the error was harmless,
the Michigan Supreme Court directed the trial court
to hold a hearing concerning how the shackling had
(or had not) affected the verdict. Davenport I, 794
N.W.2d 616. The trial court then required the jurors
to testify at the evidentiary hearing. That legal approach—relying on the jurors’ own post-trial views—
is certainly a reasonable application of Chapman’s
general standard. And if it’s an acceptable approach,
there can be no doubt as to the proper outcome in this
case under AEDPA. Then, when denying discretionary review of the trial court’s harmless-error

132a
determination, the Michigan Supreme Court suggested that the trial court should have focused on the
overall evidence of the defendant’s guilt rather than
the jurors’ testimony. (It denied review because the
evidence of guilt was overwhelming.) Davenport III,
832 N.W.2d 389. Given Chapman’s general standard,
this alternative approach would have also been a reasonable approach to harmless-error analysis in the
shackling context.
But the majority, in determining Brecht prejudice,
adopted its own harmless-error test—asking whether
a jury might have convicted the defendant of a lesser
included offense (second-degree murder) instead of his
actual crime of conviction (first-degree murder). The
majority identifies no clearly established Supreme
Court precedent requiring this approach. Indeed,
Davenport never made this lesser-included-offense argument to the state court. So the majority’s approach,
at least on collateral review, is out of bounds under
AEDPA. Thus, even if one were to accept the majority’s Brecht analysis, AEDPA would again require a
different result.
Fourth, the Brecht standard—at least on its face—
does not seem to bar habeas petitioners from presenting evidence outside the state court record (although
federalism and comity counsel against it). But under
AEDPA, habeas review is strictly “limited to the record that was before the state court that adjudicated
the prisoner’s claim on the merits.” Greene v. Fisher,
565 U.S. 34, 38 (2011) (citing Cullen v. Pinholster, 563
U.S. 170, 182 (2011)). In this case, for example, the
panel majority relies on social-science studies about
“implicit bias” (published as recently as 2019) to

133a
support its finding of actual prejudice. See Davenport
IV, 964 F.3d at 466 & n.13; id. at 479 (Readler, J., dissenting). But that new evidence is outside the state
court record and thus cannot be considered under
AEDPA.
The upshot of all this is that by shifting everything into the Brecht basket, the panel dodges
AEDPA’s clear rules—no looking at non-Supreme
Court cases, no extending existing Supreme Court
precedent, and no relying on evidence not presented
in state court. Jettisoning these clear, rule-based requirements will make appellate review in habeas
cases more difficult and unpredictable. See generally
Antonin Scalia, The Rule of Law as a Law of Rules, 56
U. Chi. L. Rev. 1175 (1989). And by affording federal
courts the ability to undo state convictions absent a
violation of existing Supreme Court precedent, the
panel disrespects the comity and federalism concerns
at the heart of AEDPA.
In conclusion, the differences between Brecht and
AEDPA matter. If AEDPA applies, the panel decision
is plainly erroneous since it extends Supreme Court
precedent, relies on circuit precedent, creates a new
standard for harmless-error review in the shackling
context, and introduces evidence not presented in the
state court proceedings. See Davenport IV, 964 F.3d at
479 (Readler, J., dissenting). Thus, this case presents
an ideal vehicle for clarifying the relationship between
Brecht and AEDPA.
5.
This case also highlights a deepening split among
the various federal Courts of Appeals. See Davenport

134a
IV, 964 F.3d at 475–77 (Readler, J., dissenting) (discussing this circuit split).
One set of circuits generally holds that courts
must apply both Brecht and AEDPA when reviewing
state court harmless-error determinations. See, e.g.,
Johnson v. Lamas, 850 F.3d 119, 133–34 (3d Cir.
2017); Johnson v. Acevedo, 572 F.3d 398, 404 (7th Cir.
2009); Malone v. Carpenter, 911 F.3d 1022, 1029–30
(10th Cir. 2018); Mansfield v. Sec’y, Dep’t of Corr., 679
F.3d 1301, 1307–08 (11th Cir. 2012).
Typical of this approach is the Seventh Circuit’s
opinion in Acevedo. There, Judge Easterbrook explained that Fry controls where a state court fails to
conduct a harmless-error analysis. Acevedo, 572 F.3d
at 404. But when a state court does reach harmless
error, “the federal court must decide whether that
analysis was a reasonable application of the Chapman
standard.” Id. And only after a finding of unreasonableness does AEDPA drop out of the picture and allow
a federal court to “make an independent decision”
about prejudice under Brecht. Id.
Another set of circuits arguably holds that a finding of actual prejudice under Brecht obviates the need
to apply AEDPA deference to state court harmless-error determinations. While the panel’s holding charges
to the front of the line, at least three other circuits
seem to have taken the same approach. See Connolly
v. Roden, 752 F.3d 505, 511 (1st Cir. 2014); Wood v.
Ercole, 644 F.3d 83, 94 (2d Cir. 2011); Deck v. Jenkins,
814 F.3d 954, 985 (9th Cir. 2016).
Of course, neatly dividing the circuits into categories at times proves too much. For the question

135a
presented here has led to both “intracircuit” and “intercircuit” splits. See Deck, 814 F.3d at 973 (Bea, J.,
dissenting from denial of reh’g en banc). Indeed, my
review of the caselaw reveals subtle (and not so subtle) tension within many circuits. Compare Vazquez v.
Sec’y, Fla. Dep’t of Corr., 807 F. App’x 901, 905 (11th
Cir. 2020) (“[F]ederal courts need not formally apply
both the Brecht standard and AEDPA-deference . . .
though ultimately both tests must be met for courts to
grant habeas relief.” (citing Mansfield, 679 F.3d at
1307–08)), with Hammonds v. Comm’r, Ala. Dep’t of
Corr., 712 F. App’x 841, 849–50 (11th Cir. 2017) (“[I]f
a petitioner satisfies the Brecht standard, he necessarily also satisfies the AEDPA standard.”); compare
also Lamas, 850 F.3d at 133–34, with Bond v. Beard,
539 F.3d 256, 275–76 (3d Cir. 2008). And as Judge
Griffin’s dissent aptly points out, our circuit’s caselaw
reflects the same tension. See ante at 12–13 (Griffin,
J., dissenting from denial of reh’g en banc).
Given the deep confusion within and among the
circuits, the question presented here is ripe for further
review.
B.
Even if we cast aside AEDPA and its congressionally mandated guardrails, Davenport is still not entitled to habeas relief. He cannot show that the shackling resulted in “actual prejudice.” Brecht, 507 U.S. at
637 (citation omitted). To do so, the shackling must
have had a “substantial and injurious effect or influence [on] the jury’s verdict.” Id.
And here, all twelve jurors testified that the
shackling “did not influence the[ir] verdict.”

136a
Davenport II, 2012 WL 6217134, at *1; see Smith v.
Phillips, 455 U.S. 209, 217 n.7 (1982) (noting that a
juror is “well qualified to say whether he has an unbiased mind in a certain matter”). While the Supreme
Court has not told us how to undertake the harmlesserror analysis in this context, the jurors’ testimony
seems important. What’s more, eleven Michigan
judges concluded the error was harmless. Davenport
II, 2012 WL 6217134, at *3, leave to appeal denied,
832 N.W.2d 389, 390; see also Brecht, 507 U.S. at 636
(“[S]tate courts often occupy a superior vantage point
from which to evaluate the effect of trial error.”). And
just in case anyone thinks that the Michigan judiciary
and jurors were out to lunch (they weren’t), a federal
magistrate judge, a district court judge, Judge
Readler, and several members of this en banc court
agreed with their conclusion.
But even if we accept Davenport’s asserted harm,
he did not suffer actual prejudice. Davenport strangled Annette’s limp body after she lost consciousness,
dumped her half-naked in an empty field, and then
robbed her house. Add to this that another woman testified that Davenport had choked her earlier in the
week. And if that isn’t enough, the jury heard about
his frequent boasts about choking anyone who gave
him trouble. Plus, the prosecution repeatedly impeached Davenport during trial. Simply put, the evidence of guilt was overwhelming. The evidence that
the shackles did not influence the jury is uncontroverted—not one juror said otherwise. And the evidence that Davenport should go free is non-existent.
So what did two federal appellate judges see that
everyone before them missed? The panel’s conclusion

137a
largely rests on speculation about how the shackles
must have biased the jurors. See Davenport IV, 964
F.3d at 464–68. But the record does not support that
speculation. And while the panel also cites a smattering of academic articles about jury bias, those articles
hardly establish that the jurors were biased in this
case. Id. at 466 & n.13; see also id. at 479 (Readler, J.,
dissenting). Rather than heed the Supreme Court’s
teaching that trial courts typically have “a superior
vantage point from which to evaluate the effect of trial
error,” the majority casts aside the prior findings in
favor of its own guesswork. Brecht, 507 U.S. at 636.
That is error. And given the grave consequences, it is
error that should not go unchecked.
***
In sum, the panel erred by holding that a finding
of actual prejudice under Brecht obviates the need to
consider AEDPA’s guardrails. AEDPA and Brecht ask
different questions that sometimes demand different
answers. Thus, before a federal court may grant habeas relief, it must find both that a state court’s harmless-error determination violated AEDPA and that actual prejudice resulted under Brecht. To make matters worse, the panel opinion badly misapplies Brecht
on its own terms, relying on mere speculation to vacate the conviction of a man who strangled a woman
in cold blood.
Because this case warrants further review, I respectfully dissent.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt
Deborah S. Hunt, Clerk

